1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1765

MAXIMA ACUNA-ATALAYA; DANIEL CHAUPEACUNA; JILDA CHAUPE- ACUNA; CARLOS
CHAUPE-ACUNA; YSIDORA CHAUPE-ACUNA,
personally and on behalf of her minor child M.S.C.C.;
MARIBEL HIL-BRIONES; ELIAS CHAVEZRODRIGUEZ, personally and on behalf of his minor
child M.S.C.C.,
Appellants
v.
NEWMONT MINING CORP;
NEWMONT SECOND CAPITAL CORP;
NEWMONT USA LTD; NEWMONT PERU
LIMITED

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-17-cv-01315)
District Judge: Honorable Gerald Austin McHugh

2a

Submitted under Third Circuit L.A.R. 34.1(a)
December 10, 2020

Before: McKEE, SHWARTZ, and FISHER, Circuit
Judges.

JUDGMENT

This cause came to be considered on the record
from the United States District Court for the District
of Delaware.
On consideration whereof, it is now hereby
ORDERED and ADJUDGED that the order of the
District Court entered March 10, 2020 is AFFIRMED
as modified. Costs will be taxed against Appellant. All
of the above in accordance with the Opinion of this
Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: December 11, 2020

3a
APPENDIX B
________________________________
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1765

MAXIMA ACUNA-ATALAYA; DANIEL CHAUPEACUNA; JILDA CHAUPE- ACUNA; CARLOS
CHAUPE-ACUNA; YSIDORA CHAUPE-ACUNA,
personally and on behalf of her minor child M.S.C.C.;
MARIBEL HIL-BRIONES; ELIAS CHAVEZRODRIGUEZ, personally and on behalf of his minor
child M.S.C.C.,
Appellants
v.
NEWMONT MINING CORP;
NEWMONT SECOND CAPITAL CORP;
NEWMONT USA LTD; NEWMONT PERU
LIMITED

On Appeal from the United States District Court
for the District of Delaware

4a
(D.C. No. 1-17-cv-01315)
District Judge: Honorable Gerald Austin McHugh

Submitted under Third Circuit L.A.R. 34.1(a)
December 10, 2020

Before: McKEE, SHWARTZ, and FISHER, Circuit
Judges.
(Filed: December 11, 2020)

OPINION*

SHWARTZ, Circuit Judge.
Plaintiffs, Peruvian farmers, sued several
Delaware-incorporated entities 1 for damages and
injunctive relief flowing from a dispute over a parcel
of land in Cajamarca, Peru. The District Court
dismissed their complaint on forum non conveniens
(“FNC”) grounds, reasoning that Peru provided an
adequate alternative forum. Because the District
This disposition is not an opinion of the full court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.
*

We refer to Defendants Newmont Mining Corp.,
Newmont Second Capital Corp., Newmont USA Ltd, and
Newmont Peru Limited collectively as “Newmont.”
1

5a
Court did not abuse its discretion in reaching that
conclusion, we will affirm.
I
Plaintiffs, Máxima Acuña-Atalaya de Chaupe
and her family, are indigenous farmers who have, over
the last twenty-five years, raised crops and livestock
on a plot of land known as the Tragadero Grande in
Cajamarca, Peru. The land is believed to sit atop a
gold deposit. Plaintiffs allege that since 2011,
Newmont, a majority owner of the Peruvian mining
company Minera Yanacocha (“Yanacocha”), has
“implemented an intimidation campaign” to force
them off their land so it could mine for gold. App. 76.
Plaintiffs sued Newmont for, among other
things, assault, battery, malicious prosecution, and
conversion. They filed suit in the United States
because they believed they could not obtain a fair
proceeding in Peru due to Newmont’s influence over
the Peruvian government and judiciary. The District
Court dismissed the suit based on FNC, subject to
certain conditions. Acuña-Atalaya v. Newmont
Mining Corp., 308 F. Supp. 3d 812 (D. Del. 2018).
While the FNC order was on appeal, Plaintiffs
submitted new information about corruption within
the Peruvian judiciary. In response, we vacated the
dismissal order and remanded for the District Court
to consider the new information. Acuña-Atalaya v.
Newmont Mining Corp., 765 F. App’x 811, 815 (3d Cir.
2019).
On remand, the District Court again held that
FNC dismissal was warranted, subject to certain

6a
conditions. 2 The District Court found that (1)
Plaintiffs had produced both general evidence of
corruption among members of the judiciary, as
revealed in what is known as the “White Collars of the
Port case,” and specific evidence of Newmont’s past
attempts to corrupt the Peruvian courts; (2) Newmont
carried its burden of persuasion in establishing that
Peru is an adequate alternative forum, based
primarily on (a) reforms enacted following the White
Collars of the Port case; and (b) Plaintiffs’ ability to
prevail in other matters before the Peruvian judiciary;
and (3) the public and private interest factors favored
dismissal. Plaintiffs appeal.
II3
Under the FNC doctrine, a district court may
dismiss a case if “(1) an [adequate] alternative forum
The District Court conditioned its dismissal on
Newmont: (1) submitting to the jurisdiction of the appropriate
court in Peru and that court accepting jurisdiction; (2) consenting
that any judgment in Peru would qualify as legally adequate
under Delaware law; and (3) agreeing not to “directly, or
indirectly through their subsidiaries and affiliates in Peru, raise
objection to any of Defendants’ officers or employees testifying or
providing evidence relevant” to Plaintiffs’ claims. App. 26-27.
2

The District Court had jurisdiction under 28 U.S.C. §
1332, and we have jurisdiction under 28 U.S.C. § 1291.
3

Because the FNC “determination is committed to the
sound discretion of the trial court,” Piper Aircraft Co. v. Reyno,
454 U.S. 235, 257 (1981), we review for abuse of discretion, Windt
v. Qwest Commc’ns Int’l, Inc., 529 F.3d 183, 189 (3d Cir. 2008).
“[T]he district court abuses its discretion if it does not hold the
defendants to their proper burden on the [FNC] motion or has
clearly erred in weighing the factors to be considered.” Lacey v.
Cessna Aircraft Co., 862 F.2d 38, 43 (3d Cir. 1988).

7a
has jurisdiction to hear the case; and (2) . . . trial in
the plaintiff’schosen forum would establish
oppressiveness and vexation to a defendant out of all
proportion to the plaintiff’s convenience, or . . . the
chosen forum is inappropriate due to the court’s own
administrative and legal problems.” Eurofins Pharma
US Holdings v. BioAlliance Pharma SA, 623 F.3d 147,
160 (3d Cir. 2010). Plaintiffs here assert that
corruption renders Peru an inadequate alternative
forum. To find a forum inadequate due to corruption,
a plaintiff must “produce[] significant evidence
documenting the partiality or delay (in years)
typically associated with the adjudication of similar
claims and these conditions [must be] so severe as to
call the adequacy of the forum into doubt.” AcuñaAtalaya, 765 F. App’x at 815 (quoting Leon v. Millon
Air, Inc., 251 F.3d 1305, 1312 (11th Cir. 2001)). If a
plaintiff does so, “then the defendant has the burden
to persuade the District Court that the facts are
otherwise.” Id. (quoting Leon, 251 F.3d at 1312).
A
We first examine whether Newmont has
carried its burden of persuasion. To do so, we must
identify what it must prove. Plaintiffs assert that
Newmont must “conclusively” demonstrate Peru is an
adequate alternative forum. Appellants’ Br. at 26- 27
(citing Bank of Credit & Commerce Int’l (Overseas)
Ltd. v. State Bank of Pakistan, 273 F.3d 241, 247 (2d
Cir. 2001) (“BCCI”); Eastman Kodak Co. v. Kavlin,
978 F. Supp. 1078, 1086-87 (S.D. Fla. 1997)). Plaintiffs
are incorrect. Rather, a defendant is required only to
“persuade” the court that the alternative forum is
adequate, Acuña-Atalaya, 765 F. App’x at 815

8a
(quoting Leon, 251 F.3d at 1312); see also BCCI, 273
F.3d at 247-48 (holding that a district court must
simply “cite to evidence in the record that supports”
its “‘justifiable belief’ in the existence of an adequate
alternative forum”). The District Court correctly
applied this burden of persuasion.
B
We next consider whether the District Court
abused its discretion by finding that Newmont met
that burden of persuasion. A district court may weigh
conflicting evidence to determine whether a defendant
“persuade[d] [the court] that the facts are” different
from what a plaintiff contends. Acuña-Atalaya, 765 F.
App’x at 815 (quoting Leon, 251 F.3d at 1312). 4
Moreover, a district court need not construe all
disputed facts in a plaintiff’s favor once he has
“produce[d] significant evidence . . . to call the
adequacy of the forum into doubt” and the defendant
offered contrary evidence. To simply construe all
See also Otto Candies, LLC v. Citigroup, Inc., 963 F.3d
1331, 1346 (11th Cir. 2020) (holding that a district court “ha[s]
wide latitude to weigh the evidence” in a FNC analysis); Jiali
Tang v. Synutra Int’l, Inc., 656 F.3d 242, 249-50 (4th Cir. 2011)
(noting the district court appropriately “considered the parties’
conflicting affidavits” when determining the adequacy of a
foreign forum); Carijano v. Occidental Petroleum Corp., 643 F.3d
1216, 1225-26 (9th Cir. 2011) (explaining the district court
“properly considered the[] arguments” of both parties’ experts
before concluding Peru offered an adequate alternative forum);
Bhatnagar v. Surrendra Overseas Ltd., 52 F.3d 1220, 1228- 29
(3d Cir. 1995) (affirming denial of FNC motion made after the
close of discovery where defendant’s expert report “failed to
counter effectively the [plaintiffs’] affidavits. . . demonstrating
that” an Indian forum would be inadequate).
4

9a
disputed facts in a plaintiff’s favor would contradict
the above-stated principle and effectively make it
impossible for a defendant to ever “persuade the
District Court that the facts are otherwise.” Leon, 251
F.3d at 1312.
The District Court examined the evidence
presented and concluded that the Peruvian forum is
generally adequate despite the recent, serious
allegations of corruption. The record supports that
conclusion. Among other things, Peru has enacted
several reforms. For instance, the National
Magistrates Council has been reconstituted, political
instability has calmed, and many wrongdoers have
been or are being prosecuted. In addition, the White
Collars of the Port case did not involve the judiciary
in Cajamarca, and the alleged corruption was
associated with claims far different from Plaintiffs’,
including bribery related to criminal prosecutions,
cheating on the examinations to become a prosecutor
or judge, and trading favors on hiring decisions within
the Callao courts. Furthermore, the evidence reveals
that the Peruvian government has responded to
Plaintiffs’ concerns with Newmont’s Conga Mining
Project. Finally, Plaintiffs have prevailed in Peruvian
courts against Newmont and Yanacocha. Such success
undercuts the argument that Peru’s judiciary cannot
fairly adjudicate Plaintiffs’ case. See Leon, 251 F.3d at
1314 (noting that Ecuador provided adequate
alternative forum where its courts were “handling
claims by other[s similarly situated to the
plaintiffs] . . . in short order”).
While a district court abuses its discretion if it
does “not adequately consider the contentions raised
by [the] plaintiff,” Lacey v. Cessna Aircraft Co., 862

10a
F.2d 38, 39 (3d Cir. 1988) (“Lacey I”), here, the District
Court provided a thoughtful and comprehensive
analysis of the evidence before it, including Plaintiffs’
expert declarations and United States Department of
State reports that highlighted the country’s recent
corruption scandals.5 It acted within its discretion by
giving more weight to other evidence and concluding
that Peru currently provides an adequate alternative
forum.6

The District Court’s thorough opinion reflects careful
consideration of the entire record, even though it did not
explicitly cite each piece of evidence presented. See Fed. Trade
Comm’n v. Penn State Hershey Med. Ctr., 838 F.3d 327, 341 (3d
Cir. 2016) (noting “the District Court was not required to cite
every piece of evidence it received, or even on which it relied”);
Newport News Holdings Corp. v. Virtual City Vision, Inc., 650
F.3d 423, 434 n.7 (4th Cir. 2011) (“Courts are not required to
identify every piece of evidence they consider in making a
decision.”).
5

Moreover, no federal court has concluded that Peru is
an inadequate alternative forum, even in the face of previous
corruption scandals. See Carijano, 643 F.3d at 1225- 26; Flores v.
S. Peru Copper Corp., 253 F. Supp. 2d 510, 531-41 (S.D.N.Y.
2002), aff’d on other grounds, 414 F.3d 233 (2d Cir. 2003); Torres
v. S. Peru Copper Corp., 965 F. Supp. 899, 903 (S.D. Tex. 1996),
aff’d, 113 F.3d 540, 544 (5th Cir. 1997); but see Guevara v.
Republica Del Peru, No. 04-23223-CIV, 2008 WL 11333416, at *1,
2 (S.D. Fla. Mar. 31, 2008) (noting that Peru “is generally an
available alternative forum,” but plaintiff’s personal affiliation
with a former government official “engaged in arms trafficking,
drug dealing, money laundering, extortion, and murder” who
went into hiding following publication of this scandal and to
whom plaintiff offered a safe house, rendered Peru an inadequate
forum for plaintiff specifically).
6

11a
C
Additional evidence published after the District
Court’s opinion does not warrant a different result or
remand. While “changed factual circumstances [that]
‘cast a different light on a[] [district court’s] earlier
ruling,’ regardless of its correctness when made,”
permit an appellate court to “reverse the ruling and
remand,” Acuña-Atalaya, 765 F. App’x at 813
(alterations in original) (quoting United States v.
Wilson, 601 F.2d 95, 98-99 (3d Cir. 1979)), that action
is not warranted here. Plaintiffs argue that a May
2020 report of the Peruvian Anti-Corruption
Prosecutor’s Office regarding the White Collars of the
Port case, related news articles, and State
Department Country Condition Reports for Peru
require reversal. The evidence produced, however,
does not “cast a different light” on the District Court’s
ruling. The Prosecutor’s Report shows that Peru
continues to investigate corruption among its judicial
officers. While these investigations have not yet fully
reformed the Peruvian judiciary, the Prosecutor’s
Report does not provide any information that the
District Court has not already considered.7 Similarly,
the State Department Country Condition Reports
merely reiterate the “allegations of widespread
corruption in the judicial system” stemming from the
White Collars of the Port case and subsequent
investigations. Appellants’ MJN Ex. 11 at 11-12. In
short, these documents are cumulative of the
information already reviewed, and it is thus
For example, the Prosecutor’s Report shows that just
eight of the 330 cases investigating judicial corruption originated
in Cajamarca and does not mention any potential wrongdoing by
Newmont.
7

12a
unnecessary for us to remand for the District Court to
consider these materials.
D
Finally, Plaintiffs argue that the District Court
erred by dismissing their complaint without ensuring
that they can present critical testimony in Peru. We
disagree.
A forum may be deemed inadequate “[w]here a
plaintiff cannot access evidence essential to prove a
claim in an alternative forum.” Eurofins Pharma, 623
F.3d at 161 n.14 (citing Lacey v. Cessna Aircraft Co.,
932 F.2d 170, 191 (3d Cir. 1991) (“Lacey II”)). Here,
Plaintiffs’ expert explained that the Peruvian Civil
Procedural Code only allows for Plaintiffs to testify if
Newmont so requests; otherwise, Plaintiffs must
make representations to the court exclusively through
their complaint. In response, Newmont’s expert avers
that Plaintiffs may present a declaration to the
Peruvian courts in connection with their claims.
Newmont also points out that Cajamarca’s courts
have treated Plaintiffs’ statements in their complaints
as their testimony in prior cases and have also relied
on the reports of their experts, so this critical evidence
has adequately been placed before the courts. On this
record, therefore, we cannot conclude that the District
Court erred by finding that the Peruvian judicial
system will not prevent Plaintiffs from presenting
essential evidence in their case. See Piper Aircraft Co.
v. Reyno, 454 U.S. 235, 251 (1981) (holding when
determining if a foreign forum is adequate, a district
court is not obligated to “conduct[] complex exercises
in comparative [international] law”); STM Grp., Inc. v.
Gilat Satellite Networks Ltd., No. SACV 11-0093

13a
DOC (RZx), 2011 WL 2940992, at *3-5 (C.D. Cal. July
18, 2011) (finding Peru is an adequate forum despite
the Peruvian system not affording access to all pretrial discovery tools because, among other things, it
“provide[s] opportunities to conduct discovery . . . .
[including] the ability to subpoena and compel witness
testimony and document production, and parties are
able to appeal a court’s discovery decisions”); cf.
Figueiredo Ferraz E Engenharia de Projeto Ltda. v.
Republic of Peru, 665 F.3d 384, 390-91 (2d Cir. 2011)
(finding Peru to be an adequate forum even though
Peruvian law might be less favorable and “plaintiff
might recover less”).8
III
For the foregoing reasons, we will affirm, as
modified, the District Court’s order dismissing
Plaintiffs’ complaint.

Plaintiffs also argue that the District Court erred by
failing to require that Newmont waive any statute of limitations
defenses. In its briefing, Newmont consented to such a condition
and this representation is binding on Newmont. See Trotter v.
7R Holdings LLC, 873 F.3d 435, 443 (3d Cir. 2017) (“[A]
reviewing court may properly consider the representations made
in the appellate brief[s] to be binding as a form of judicial
estoppel.” (quoting EF Operating Corp. v. Am. Bldgs., 993 F.2d
1046, 1050 (3d Cir. 1993))). To ensure this representation is
memorialized with the other conditions, we will modify the
District Court’s order to include this condition. See Leon, 251
F.3d at 1316 (modifying conditions of dismissal to include five
concessions).
8

14a
APPENDIX C
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

MÁXIMA ACUÑA-ATALAYA;
DANIEL CHAUPE-ACUÑA;
JILDA CHAUPE-ACUÑA;
CARLOS CHAUPE-ACUÑA;
YSIDORA CHAUPE-ACUÑA,
personally and on behalf of
her minor child; ELIAS
CHAVEZ-RODRIGUEZ,
personally and on behalf of
her minor child; and
MARIBEL HIL-BRIONES,
Plaintiffs,
v.
NEWMONT MINING
CORPORATION,
NEWMONT SECOND
CAPITAL CORPORATION;
NEWMONT USA LIMITED;
and NEWMONT PERU
LIMITED,
Defendants.

CIVIL ACTION
No. 17-1315

15a
ORDER
This 10th day of March, 2020, upon
consideration of the Court of Appeals’ instructions
ordering remand (ECF 96), and the parties’
supplemental briefing and submissions of evidence
(ECF 99 et seq.), it is hereby ORDERED that
Defendants’ Motion to Dismiss on the basis of forum
non conveniens (ECF 14) is GRANTED, subject to the
following conditions:
1. Defendants in this action must submit to
the jurisdiction of the appropriate court in
Peru, and that Court must accept
jurisdiction.
2. Defendants must stipulate that any
judgment entered in Peru qualifies as
legally adequate under Delaware law,
including 10 Del. Code § 4803(b).
3. Defendants may not directly, or indirectly
through their subsidiaries and affiliates in
Peru, raise objection to any of Defendants’
officers or employees testifying or
providing evidence relevant to the claims
asserted by Plaintiffs, whether such
evidence is sought here or in Peru.
This dismissal is without prejudice.

/s/ Gerald Austin McHugh
Gerald Austin McHugh
United States District Judge

16a
APPENDIX D
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

MÁXIMA ACUÑA-ATALAYA;
DANIEL CHAUPE-ACUÑA;
JILDA CHAUPE-ACUÑA;
CARLOS CHAUPE-ACUÑA;
YSIDORA CHAUPE-ACUÑA,
personally and on behalf of
her minor child; ELIAS
CHAVEZ-RODRIGUEZ,
personally and on behalf of
her minor child; and
MARIBEL HIL-BRIONES,
Plaintiffs,
v.
NEWMONT MINING
CORPORATION,
NEWMONT SECOND
CAPITAL CORPORATION;
NEWMONT USA LIMITED;
and NEWMONT PERU
LIMITED,
Defendants.

CIVIL ACTION
No. 17-1315

17a
McHUGH, J.

MARCH 10, 2020

MEMORANDUM OPINION
This case concerns a conflict over a tract of land
in northern Peru between a family of indigenous
campesinos residing on the land (Plaintiffs) and
several Delaware-incorporated mining entities,
collectively referred to as Newmont. Newmont owns a
gold mining company operating in the region, and
land on which Plaintiffs live and farm sits atop a gold
deposit.
In 2017, Plaintiffs brought suit in the District
of Delaware. In their Complaint, they contended that
Newmont’s agents had used violence and other illegal
tactics to evict them from their land. Plaintiffs opted
to proceed in these federal courts and not the courts of
Peru because they believed the Peruvian courts were
corrupt and would not fairly adjudicate their claims.
After Plaintiffs filed suit, Newmont moved to dismiss
on forum non conveniens grounds, arguing, among
other things, that the sources of proof and the key
witnesses were in Peru. I granted Newmont’s motion,
with conditions, and Plaintiffs appealed. While the
appeal was pending, a further political crisis arose in
Peru, leading both its judiciary and Congress to
declare states of emergency. As a result, the Court of
Appeals vacated my Order dismissing Plaintiffs’
Complaint and remanded for me to reevaluate
whether Peru remained an adequate alternative

18a
forum in light of the instances of corruption identified
following my dismissal.
The parties have submitted supplementary
materials concerning those scandals for my
consideration. Though the events described are again
concerning, they do not suffice to supplant my
previous conclusion that Peru is an adequate
alternative forum under the appropriate forum non
conveniens legal framework. Newmont’s motion to
dismiss therefore will be granted. However, because I
remain concerned that Plaintiffs’ ability to be fairly
heard in Peru is compromised, I grant Newmont’s
motion subject to various conditions attached to the
accompanying Order.
I.

Nature
and
stage
of
the
proceedings
A. The District of Delaware lawsuit

The facts relevant to Plaintiffs’ decision to
bring suit were detailed in my previous opinion. See
ECF 92, at 2-5. I will restate them here, but only
briefly. This case arises from a conflict over a tract of
land in Cajamarca, Peru, a rural region in the
northern Andes. Plaintiffs are campesinos—
indigenous subsistence farmers residing on that land,
which they refer to as “Tragadero Grande.” Plaintiffs
claim they purchased possessory rights to Tragadero
Grande in 1994. ECF 1, ¶ 65. In the years following
Plaintiffs’ alleged purchase, Minas Conga, a Peruvian
mining company, began negotiating with members of
the community to acquire the land for a mining project.
Minas Conga achieved some success in its

19a
negotiations with members of the community. But
Plaintiffs insist they never sold or transferred the
possessory rights they had in Tragadero Grande to
Minas Conga or any other entity. Newmont, for its
part, claims that Minas Conga entered legitimate
land-sale contracts for hundreds of acres in the region,
including Tragadero Grande. Reconciling the parties’
positions seems to turn on decades-old Spanish
language real estate documents, the oral histories of
the parties to the negotiations, and complex property
law governing land held by campesinos. In any case,
in 2001, Minas Conga transferred the property rights
it alleges it acquired to Minera Yanacocha, a
subsidiary of Newmont.
Conflict between the parties began in earnest
in 2010. According to Plaintiffs, in late 2010,
Newmont or its agents entered Tragadero Grande and
destroyed Plaintiffs’ property and crops. Then, the
next year, Yanacocha staff, accompanied by members
of the Peruvian National Police and a private security
firm, sought to evict Plaintiffs from the land. In doing
so, Plaintiffs allege that the entities attacked them
and again destroyed their property. Plaintiffs further
allege that the purpose of these attacks was to
dispossess them of their portion of the land to
facilitate the development of a gold mine operated by
Newmont and its Peruvian subsidiary. Newmont
concedes that it or its agents worked with the
Peruvian National Police and other security officials
to evict Plaintiffs from the land. But, according to
Newmont, such measures were necessary “to protect

20a
[their] possessory interests under Peruvian law.” ECF
15, at 3.
B. The District Court opinion
Plaintiffs brought suit against Newmont in the
federal district court in Delaware. Plaintiffs filed in
Delaware and not Peru because they were convinced
that the Peruvian courts, including the trial courts in
Cajamarca, were corrupt and would not fairly
adjudicate their case. After suit was filed, Newmont
moved to dismiss the Complaint on forum non
conveniens grounds. I granted Newmont’s motion on
April 11, 2018, concluding that Peru was an adequate
alternative forum and that the relevant forum non
conveniens criteria otherwise favored dismissal. See
Acuña-Atalaya v Newmont Mining Corp., 308 F. Supp.
3d 812, 819-20 (E.D. Pa. 2018) (all citations will be to
the slip opinion, available at ECF 92).
In deciding whether forum non conveniens
dismissal was appropriate, I employed the standard
three-step analytical framework that the Court of
Appeals prescribed in Eurofins Pharma US Holdings
v. BioAlliance Pharma SA, 623 F.3d 147 (3d Cir. 2010):


“First, the court must determine ‘whether
an adequate alternate forum’ exists to
entertain the case.” ECF 92, at 9 (quoting
Eurofins Pharma, 623 F.3d at 160).



“If so, the court must next determine ‘the
appropriate amount of deference to be
given the plaintiff’s choice of forum.’” Id.

21a
(quoting Eurofins Pharma, 623 F.3d at
160).


“Finally, the court must weigh ‘the
relevant public and private interest
factors’ . . . to determine whether, on
balance, ‘trial in the chosen forum would
result in oppression or vexation to the
defendant out of all proportion to the
plaintiff’s convenience.’” Id. (quoting
Eurofins Pharma, 623 F.3d at 160).

In applying the Eurofins factors, I noted that
defendants seeking dismissal on the basis of forum
non conveniens bear the burden of persuasion at every
stage of the analysis. Id. (citing Piper Aircraft Co. v.
Reyno, 454 U.S. 235, 255 (1981), and Lacey v. Cessna
Aircraft Co., 862 F.2d 38, 43-44 (3d Cir. 1988)).
As to the first Eurofins factor, I concluded that
Peru was an adequate alternative forum because
Newmont stipulated to service of process, consented
to the jurisdiction of the Peruvian courts, and agreed
to have that stipulation and consent be conditions of
dismissal. Id. at 11. In addition, Plaintiffs conceded
that Peruvian law recognized a cause of action for
their claims and offered a remedy for the property
damage and personal injuries alleged. Id.
In arguing that Peru was not an adequate
forum, Plaintiffs alleged that corruption pervaded the
Peruvian judiciary, compromising their ability to be
fairly heard. I assessed the allegations of corruption
offered by Plaintiffs, and concluded that “as to the

22a
first element of the [Eurofins] test, although Plaintiffs
have shown cause for concern over Peruvian courts, I
cannot say that they are ‘clearly unsatisfactory’ under
Piper.” Id. at 20. In particular, I assessed three main
arguments advanced by Plaintiffs, and found none
sufficiently persuasive to conclude that Peru was an
inadequate forum.
As to Plaintiffs’ first argument, I discounted an
older well-publicized story about a Newmont
executive successfully pressuring a Peruvian
Supreme Court judge to rule favorably in a case
involving Newmont. See id. at 15-16. My conclusion
was based on the fact that the event “occurred some
18 years ago, around the time when the regime of an
infamously corrupt president . . . imploded,” but that
“the interim regime change and noted improvements
since,” both in the Peruvian judiciary and at Newmont,
mitigated concerns about similar events recurring. Id.
Second, I analyzed evidence offered by
Plaintiffs regarding Newmont’s influence in the
Peruvian lower courts. Plaintiffs’ attorney in Peru
testified to multiple examples of suspicious behavior
in criminal proceedings involving Plaintiffs, including
a trial court’s refusal to accept some of Plaintiffs’
evidence and the prosecutors receiving a copy of a
judgment before the attorney did. Id. at 16-17. While
I found the account “concerning,” I noted that “such
concern is mitigated by the fact that the judgment was
overturned by the court of appeals on two occasions,
and the Peruvian Supreme Court subsequently
upheld that ruling.” Id. at 17. Ultimately, I concluded

23a
that “Plaintiffs were ultimately protected by the very
judicial system they ask me to deem inadequate.” Id.
Finally, I investigated a particular episode
evidencing Newmont’s capture of the Peruvian lower
courts. Plaintiffs asserted that, in criminal
proceedings against them in Peru, Newmont’s lawyer
hand-delivered the guilty sentence to the Peruvian
judge who, after issuing the sentence, admitted that
Newmont had given an “economic benefit” to the
prosecutor to bring the case against Plaintiffs. Id. at
17-18. Though I found this account “troubling,” my
concerns were mitigated in part by the fact that
Plaintiffs had achieved “success . . . in the appellate
courts [of Peru]” in those same criminal proceedings.
Id.
As to the second and third Eurofins factors, I
concluded that, on balance, Newmont had met its
burden of showing that the private and public interest
factors weighed heavily in favor of the case being tried
in Peru, and outweighed the reduced deference owed
to Plaintiffs’ choice of forum. ECF 92, at 22-28 (relying
on the factors established in Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947)). I acknowledged that the federal
courts often defer to a plaintiff’s choice of forum, but
noted that these Plaintiffs’ choice of forum was not
due significant deference because the federal courts
generally do not entitle foreign plaintiffs the same
deference as to choice of forum as domestic citizens.
And because the sources of proof and the key
witnesses were largely located in and around
Cajamarca, and Delaware had no particular stake in

24a
the litigation, the public and private factors favored
dismissal.
I therefore granted Newmont’s forum non
conveniens motion and dismissed Plaintiffs’
Complaint, allowing Plaintiffs to reinvoke the
jurisdiction of this Court if the conditions of dismissal
were not met.
C. The Court of Appeals opinion
The Court of Appeals has issued a limited
remand for this Court “to reconsider its prior
determination that Peru is an adequate forum.”
Acuña-Atalaya v Newmont Mining Corp., 765 Fed.
App’x 811, 812 (3d Cir. 2019) (all citations will be to
the slip opinion, available at ECF 96).1 The remand is
based upon events affecting the judiciary in Peru that
occurred after I first ruled in April 2018. The Court of
Appeals has requested that I evaluate whether these
new developments change my conclusion that Peru is
an adequate alternative forum. In doing so, the Court
of Appeals has further specified that I reassess
adequacy (the first Eurofins factor) by applying the
following standard established by the Eleventh
Circuit in Leon v. Millon Air, Inc., 251 F.3d 1305, 1312
(11th Cir. 2001):

I do not read the Court of Appeals’ opinion to question my
conclusions that, on balance, Newmont has met its burden of
showing that the private and public interest factors outweigh
any deference owed to Plaintiffs’ choice of forum. See ECF 92, at
21-28.
1

25a
While the Supreme Court has not yet spoken to
particular burdens or standards associated
with a plaintiff’s assertion of unfair treatment
in [the proposed alternative forum], the
Eleventh Circuit has done so, offering a logical
and persuasive approach: “defendants have the
ultimate burden of persuasion, but only where
the plaintiff has substantiated his allegations
of serious corruption or delay. . . . [W]here the
allegations are insubstantially supported, . . . a
District Court may reject them without
considering any evidence from the defendant.
But where the plaintiff produces significant
evidence documenting the partiality or delay
(in years) typically associated with the
adjudication of similar claims and these
conditions are so severe as to call the adequacy
of the forum into doubt, then the defendant has
the burden to persuade the District Court that
the facts are otherwise.”
ECF 96, at 7-8 (first bracketed text added).2
In practical terms, Leon endorses a three-step
analysis when a district court is evaluating whether a

Leon offers a workable template for addressing the adequacy of
the alternative forum. As such, it can be understood as a
refinement of the step-one analysis articulated in Eurofins. In
any event, because the Court of Appeals has requested that I
employ Leon’s methodology on remand, it represents the law of
the case. See Christianson v. Cold Indus. Operating Corp., 486
U.S. 800, 816 (1988); Minard Run Oil Co. v. U.S. Forest Service,
549 Fed. App’x 93, 98 (3d Cir. 2013).
2

26a
proposed alternative forum is adequate under the first
Eurofins factor:
1. Defendant’s Initial Burden. At the outset, the
defendant must show that “there exists an alternative
forum,” a requirement “[o]rdinarily . . . satisfied when
the defendant is ‘amenable to process’ in the other
jurisdiction.” Id. at 7 (citing Piper Aircraft, 454 U.S.
at 254 n.22). To satisfy this step, a court can require a
defendant to stipulate to service of process and
consent to jurisdiction in the alternative forum, as I
did in my initial dismissal. ECF 92, at 22.
2. Plaintiff’s Burden of Production. If there
exists an “alternative forum,” then the burden shifts
to the plaintiff to produce “significant evidence”
demonstrating that “the remedy offered by the other
forum is clearly unsatisfactory.” ECF 96, at 7 (citing
Piper Aircraft Co. v. Reyno, 454 U.S. 235, 254 n.22
(1981)). To demonstrate a clearly unsatisfactory
forum, the plaintiff must do more than simply show
that “the law applicable in the alternative forum is
less favorable to the plaintiff’s chance of recovery.” Id.
(citing Piper Aircraft, 454 U.S. at 250). Indeed, “an
adequate forum need not be a perfect forum,” and
“some inconvenience to litigants does not indicate that
a forum is inadequate.” Leon v. Millon Air, Inc., 251
F.3d 1305, 1311-12 (11th Cir. 2001) (internal
quotations omitted). Instead, the plaintiff must
produce “significant evidence” that one or more of the
following factors (or related factors) is the case:


The alternative forum is incapable in
fact or in law of producing a remedy.

27a
ECF 96, at 7 (noting that “the other forum
may not be an adequate alternative . . .
where the remedy provided by the
alternative forum is so clearly inadequate
or unsatisfactory that it is no remedy at all”
(citing Piper Aircraft, 454 U.S. at 254)).



The alternative forum is partial to
defendants or will treat the plaintiff
unfairly. Id. (noting that “the other forum
may not be an adequate alternative . . .
where the plaintiff ‘will be . . . treated
unfairly’” (citing Piper Aircraft, 454 U.S. at
254-55)).



The alternative forum is slow or
inefficient in adjudicating similar
claims. Id. (noting that the alternative
forum may be inadequate when “delay (in
years) typically associated with the
adjudication of similar claims” (citing Leon,
251 F.3d at 1312)).

3. Defendant’s Burden of Persuasion. If the
plaintiff produces significant evidence that the
alternative forum is “clearly unsatisfactory,” then “the
defendant has the burden to persuade the District
Court that the facts are otherwise.” Id. at 7-8; ECF 92,
at 9 (“Defendants seeking dismissal on the basis of

28a
[forum non conveniens] bear the burden of persuasion
at every stage of this analysis.”). But “where
[plaintiffs’]
allegations
are
insubstantially
supported, . . . a District Court may reject them
without considering any evidence from the defendant.”
Id.
As to the changed situation in Peru, the Court
of Appeals observed that “there have been significant
factual developments post-dating [the District Court’s]
dismissal that cast its ruling in a different light.” ECF
96, at 4. The panel aptly observed that those later
scandals, discussed in detail below, could call into
question various judicial reforms I relied upon in my
initial opinion.3 It is thus necessary to reopen the
inquiry into the adequacy of the Peruvian courts.
D. The
significant
factual
developments
post-dating
this
Court’s dismissal
The significant factual developments postdating my dismissal collect in two categories: first, the
discovery, through wiretapped recordings of phone
conversations, of significant corruption among senior
members of the Peruvian judiciary; and, second, the
The Court of Appeals noted that the recent disclosures of
corruption could “undermine confidence that [the appellate
courts of Peru] can serve as a protection against Newmont’s
alleged capture of the lower courts.” ECF 96, at 6. The panel also
suggested that “while the publicity around the recent scandal
has not centered on Cajamarca trial courts,” historic allegations
of corruption perpetuated by Newmont may be more likely to
recur “in the context of a judicial system permeated by corruption
problems than it would in the absence of such problems.” Id.
3

29a
political clash between Peru’s legislative and
executive branches, followed by subsequent
legislative elections. I discuss each in turn.
1. The White Collars of the Port case and the
resulting states of emergency. In December 2017, local
authorities were investigating drug trafficking and
organized crime in the Port of Callao, Peru’s main
commercial seaport, located just outside Lima. ECF
101, ¶ 4. As part of the investigation, the authorities
wiretapped and recorded conversations among
various suspects. ECF 101, ¶ 4. Among other things,
the recorded phone conversations revealed an
expansive network of corruption involving high-level
Peruvian judges and judicial officials, including the
President of the Superior Court of Justice of Callao,
the President of the Second Transitory Criminal
Chamber of the Supreme Court, and three members
of the National Magistrates Council, the body
responsible for selecting and appointing judges and
prosecutors at all levels of the judiciary. ECF 101, ¶ 4;
ECF 108, ¶ III.8.4
The audio files were released to the public on
July 7, 2018, and the fallout was dramatic. The
Executive Judicial Council—the governing body of the
judicial branch—declared the Court of Appeals of
Callao to be in a state of emergency, which by the
See Rebecca Tan, Leaked calls reveal systemic corruption in
Peru’s judiciary, sparking flurry of resignations, Washington
Post
(July
20,
2018),
https://www.washingtonpost.com/news/worldviews/wp/2018/07/
20/leaked-calls-revealsystemic-corruption-in-perus-judiciarysparking-flurry-of-resignations.
4

30a
terms of the decree lasted for sixty days. ECF 101, ¶
8. The judiciary’s internal disciplinary body, known as
OCMA, suspended the President of the Callao appeals
court, together with four other judges linked to the
scandal, and deactivated the Second Provisional
Criminal Chamber of the Supreme Court, the arm of
the Supreme Court whose president was implicated in
the audio files. ECF 101, ¶ 8. The following week, the
Executive Judicial Council declared a “state of
emergency” for the entire judicial branch, which
lasted for 90 days. The National Council of the
Judiciary suspended its selection processes for judges
and prosecutors and, on July 16, 2018, provisionally
suspended César Hinostroza from his position as a
Supreme Court judge while investigations against
him continued. ECF 101, ¶ 10. A fortnight after the
audio records were released, the head of Peru’s
Supreme Court stepped down, even though he was not
personally accused of any wrongdoing. ECF 101, ¶ 9.
The reactions from the executive and
legislative branches were likewise swift. Martín
Vizcarra, the President of Peru, convened a special
session of Congress where he presented a slate of
proposed reforms. ECF 101, ¶ 14-15. Congress
investigated possible offenses committed by the
members of the National Magistrates Council, and
recommended that all members be impeached for
having committed major offenses to the Constitution,
which the Congress unanimously approved. Peru’s
Congress declared a nine-month state of emergency
for the Council and, thereafter, replaced it with a new
entity called the National Board of Justice. ECF 101,

31a
¶ 14-17. The Congress then impeached Hinostroza
(the Supreme Court judge) and banned him from
holding public office for ten years. Soon after he was
impeached, Hinostroza fled to Spain to avoid
prosecution. Finally, Congress approved the proposal
presented by the President to create a Council on
Reforming the Justice System, which aimed to
“promote and follow up on the reform of the justice
system.” ECF 101, ¶ 19-20.
The scandal and its aftermath did not stop
there. The Executive Judicial Council, the judiciary’s
governing body, which had declared the judicial
emergency, was itself declared in emergency after
some of its members were implicated by the scandal.
ECF 101, ¶¶ 21-23. Two more sitting Supreme Court
judges were found to be involved, leading to ethics
investigations that remain open. ECF 101, ¶ 13. The
acting Attorney General, upon replacing her
corrupted predecessor, declared the Prosecutor’s
Office to be in a state of emergency. ECF 101, ¶ 23;
ECF 100, Ex. 17.
In all, as a direct result of the publications of
the wiretapped phone conversations, various
Peruvian governmental entities declared five times
that various other Peruvian governmental entities
were in states of emergency.
2. The political clash between Peru’s legislative
and executive branches, and the subsequent legislative
elections. In addition to White Collars of the Port case
and its aftermath, Plaintiffs filed three supplemental
exhibits that “provide an update about events

32a
unfolding in Peru in response to attempted judicial
corruption reforms,” which, they argue, “confirm that
Defendants cannot meet their burden to prove Peru is
an adequate alternative forum for this case.”
Plaintiffs’ Notice of Supplemental Evidence, ECF 124.
Those exhibits include:


October 2, 2019 (Washington Post)—
“Peru Shuts Congress, Triggers a
Constitutional Crisis.”



October 1, 2019 (Washington Post)—
“Peru’s president dissolved Congress.
Then
Congress
suspended
the
president.”



October 1, 2019 (New York Times)—“Who
Leads Peru? Power Struggle Creates
Worst Political Crisis in Decades.”

Broadly, each supplemental exhibit discusses events
that occurred in Peru in late September involving a
clash between Peru’s executive and legislative
branches. At bottom, the President of Peru (Martín
Vizcarra) ordered the dissolution of Congress and, in
response, Congress suspended Vizcarra and
nominated his vice president, Mercedes Aráoz, as the
new acting head of state. Those events have been
reported widely in the American press. In addition to
the articles offered by Plaintiffs, I have taken notice
of various other articles describing the events:


October 3, 2019 (New York Times)—How
a Political Crisis Seized Peru: Boom
Times, Corruption and Chaos at the

33a
Top—noting that the “turmoil that has
roiled Peru for more than a year reached a
turning point this week, when the
president dissolved Congress and a rival
briefly claimed to lead the nation. One
Peruvian ex- president shot himself dead
as the police arrived at his door The
head of the opposition sits in jail, under
investigation herself. And for about a day
this week, the president and vice president
both claimed to rightfully lead Peru.”


October 9, 2019 (Wall Street Journal)—
‘God and Money’: Graft in Peru Sparks
Political
Reckoning—noting
that
President Vizcarra’s dissolution of the
opposition- controlled Congress was
viewed by many “angry lawmakers” as a
coup, but “many Peruvians saw it as a
righteous act, like closing a rowdy red-light
district.”



October 10, 2019 (New York Times)—
Peru
Opposition
Leader
Keiko
Fujimori Is Arrested in Corruption
Inquiry—noting
that “Fujimori,
a
powerful Peruvian politician whose father
ruled the country in the 1990s, was
arrested
in
a
money
laundering
investigation on Wednesday, calling into
question the future of the political family
and their right-wing populist movement”
and that the “arrest came just days after

34a
the country’s Supreme Court ordered her
father, former President Alberto Fujimori,
back to prison on a human rights abuse
conviction, overruling the presidential
pardon that had freed him in December.”


October
14,
2019
(Reuters)—Peru
Lawmaker Files Last-Ditch Legal
Appeal Over Congress Closure—noting
that the “head of Peru’s dissolved Congress
presented a legal appeal to the country’s
top court . . .to suspend the closure of
parliament on the grounds that President
Martín Vizcarra had exceeded his
constitutional powers.”

Like the evidence submitted by Plaintiffs, the
representative articles listed above describe years of
corruption that have dogged all branches of the
Peruvian
government,
culminating
in
the
confrontation between Peru’s executive and
legislative branches.
I also have taken notice of two developments
out of Peru that could pertain to the indices of
corruption identified by Plaintiffs. Late January, Peru
held legislative elections after its Constitutional
Court ruled that the President’s dissolution of the
Congress in September 2019 was legal. The New York
Times, for example, covered the election as follows:


January 25, 2020—Peruvians to Vote
for New Congress as Country Seeks to
Turn Page on Crisis—“Peruvians will

35a
head to the polls on Sunday to choose a
new Congress that will be in place for just
over a year.”


January 26, 2020—Peru Elects Deeply
Split Congress With Right-Of-Center
Tilt—“Peruvians elected a fractured
Congress with no clear leadership on
Sunday, split among 10 parties with a
center-right party grabbing the most seats.”



January 27, 2020—‘Stunning Defeat’:
Fujimori’s Ghost Fades in Peru After
Legislative
Gamble—“Peruvian
President Martin Vizcarra took a gamble
last year when he shuttered Congress after
a bruising battle over a corruption
crackdown.”

I consider all these events in reevaluating the
adequacy of Peru as an alternative judicial forum. 5
As I noted in my previous opinion, the Federal Rules of Civil
Procedure provide that in assessing the adequacy of a foreign
forum, “the court may consider any relevant material or source,
including testimony, whether or not submitted by a party or
admissible under the Federal Rules of Evidence.” Fed. R. Civ. P.
44.1; see also ECF 92, at 10 n.6. My consideration of the reporting
published in various newspapers but not exhibited by either
party falls within that general allowance and, as before, I have
availed myself of the full scope of the parties’ submissions and
material publicly available. Further, the general allowance
detailed in Rule 44.1 accords with my ability to “take judicial
notice at any stage of the proceeding of a fact not subject to
reasonable dispute that is capable of accurate and ready
determination by resort to a source whose accuracy cannot be
reasonably questioned.” Ieradi v. Mylan Labs., Inc., 230 F.3d 594,
5

36a

600 n.3 (3d Cir. 2000). To those ends, I have identified articles
from major United States newspapers reporting the events in
Peru and attempted to distill from them a common nucleus of
facts. I should note, though, that at least in the case of one
newspaper, the difference in content between the newsroom and
the editorial page is stark. The editorial board at the Wall Street
Journal published a piece last October in which the author
opined that “Hugo Chávez[’s] [coming] to power in 1999 on a
pledge to root out corruption” and “Fidel Castro’s Cuban
revolution [that] derived much of its popular support from
widespread disgust with the corruption of the Batista
regime . . . .help[] [to] explain why the unconstitutional
dissolution of the Peruvian Congress by President Martín
Vizcarra last week has the region’s democrats on edge.” Mary
Anastasia O’Grady, Opinion, The President of Peru Stages a
Coup, Wall Street Journal, Oct. 6, 2019 (accessed online). The
Journal’s newsroom, for its part, took a different perspective. It
acknowledged that President Vizcarra’s dissolution of the
opposition- controlled Congress was viewed by many “angry
lawmakers” as a coup, but further observed that “many
Peruvians saw it as a righteous act, like closing a rowdy red-light
district.” John Otis & Juan Montes, ‘God and Money’: Graft in
Peru Sparks Political Reckoning, Wall Street Journal, Oct. 9,
2019 (accessed online). Newsrooms and editorial pages are, of
course, held to different standards, and I have given the news
reports greater weight. Further, the New York Times,
Washington Post, and Wall Street Journal are not the only news
outlets covering the scandals in Peru and their aftermath. See,
e.g., Peru in turmoil after President Vizcarra dissolves Congress,
BBC News, Oct. 1, 2019 (accessed online); Mariana Sanchez,
Peru voters demand corruption-free gov’t, Al-Jazeera, Oct. 16,
2019 (accessed online). Finally, various Peruvian newspapers,
including El Comercio, El Peruano, and La República, along with
myriad other Latin American publications, have covered the
scandals and their aftermath relentlessly.

II.

37a
Discussion

Taking the record as a whole, for the reasons
that follow, I conclude that Newmont has satisfied its
ultimate burden to show that Peru is an adequate
alternative forum.
A. Newmont has shown that Peru is
an alternative forum
Newmont has shown that Peru “exists [as] an
alternative forum.” ECF 96, at 7 (quoting Piper
Aircraft, 454 U.S. at 254 n.22). In my previous order,
I imposed on Newmont various conditions of dismissal.
ECF 93. I required that Newmont submit to the
jurisdiction of the appropriate court in Peru and for
that court to accept jurisdiction; to stipulate that any
judgment entered in Peru qualifies as legally
adequate under Delaware law; and to agree not to
directly or indirectly raise objections to any of its
agents testifying or providing evidence relevant to the
claims asserted by Plaintiffs, whether such evidence
is sought here or in Peru. Newmont did not lodge
objections to any of those conditions before, nor did it
seek to litigate the imposition of those conditions on
appeal. ECF 126, at 3:1-14. I will reimpose those
conditions on Newmont now. Because the existence of
an alternative forum ordinarily is satisfied by
defendant’s agreement to submit to the jurisdiction of
the foreign forum, see Trotter v. 7R Holdings, 873 F.3d
435, 442-43 (3d Cir. 2017), Newmont has
demonstrated that Peru exists as an alternative
forum.

38a
B. Plaintiffs have produced enough
evidence to credibly question
whether Peru is a satisfactory
forum
Because Newmont has demonstrated that Peru
exists as an alternative forum, Plaintiffs must now
produce “significant evidence” to demonstrate that
“the remedy offered by the other forum is clearly
unsatisfactory.” ECF 96, at 7 (citing Piper, 454 U.S. at
254 n.22). To do so, Plaintiffs must demonstrate that
Newmont’s proposed alternative forum either cannot
provide a remedy, is biased against them or for
Newmont, or would be severely slow or inefficient in
adjudicating their claims. Given the posture of the
case, it cannot be questioned that Plaintiffs have
satisfied their burden of production here. The Court of
Appeals described the White Collars of the Port
scandal and how evidence related to that scandal
could “cast a different light” on my initial
determination that Peru was an adequate forum. The
Court of Appeals then supplemented the record with
that evidence, ECF 96, at 8, and Plaintiffs have
submitted detailed materials concerning those
scandals. ECFs 100, 101. Further, evidence related to
that scandal and related scandals has been made
widely available in the public domain.
Plaintiffs highlight the White Collars of the
Port case and its aftermath to question the general
adequacy of the Peruvian courts. In their
supplemental filing opposing Newmont’s motion to
dismiss, Plaintiffs contend that “[t]he rot infecting the
Peruvian judiciary, which prompted Peru’s President
to lament the ‘collapse’ of the country’s justice system,
and Peruvian officials to declare states of emergency

39a
in four separate judicial bodies, precludes a finding
that Peru’s courts are generally adequate.” ECF 99, at
10. Even Newmont, “for the most part, do[es] not take
issue with [Plaintiffs’] general descriptions” of
corruption. See Defs. Supp. Reply, at 6, ECF 107.
Plaintiffs also reassert the specific evidence of
corruption perpetrated by Newmont that was before
me in advance of my initial opinion. ECF 92, at 11-20
(detailing the alleged corruption in the Peruvian
judiciary). Plaintiffs argue that even if this Court
found the Peruvian courts to be generally adequate,
“the crisis and the ‘troubling’ evidence of Newmont’s
own corruption preclude a finding that the local courts
will fairly hear these Plaintiffs’ claims against these
Defendants.” Id.
In total, Plaintiffs’ submission of evidence of
general and specific corruption, plus the supervening
instances of significant corruption, is enough to
satisfy Plaintiffs’ burden to produce “significant
evidence” that the alternative forum is “clearly
unsatisfactory.” See ECF 96, at 7. Newmont no doubt
disagrees with the conclusions Plaintiffs draw from
these facts, but that disagreement goes to Newmont’s
burden of persuasion, not Plaintiffs’ burden of
production, which I discuss next.
C. Defendants have satisfied their
burden of persuasion to show that
Peru can fairly adjudicate Plaintiffs’
legal claims
Having carefully considered these revelations,
and, more importantly, Peru’s response to them, I
conclude that Newmont has carried its ultimate
burden to establish Peru as an adequate alternative
forum. In concluding that it has, my analysis proceeds

40a
in four parts. First, deeming an alternative forum
inadequate remains the “rare circumstance,” see ECF
96, at 7, and even with these recent developments, the
Department of State has not declared Peru’s legal
system dysfunctional. Second, the Peruvian
government swiftly prosecuted the main actors of the
White Collars of the Port case and instigated further
reforms in the wake of the scandal, demonstrating
commitment to ensuring that such corruption does not
repeat. Third, the White Collars of the Port case did
not involve Cajamarca or the types of claims raised by
Plaintiffs, and is geographically distant, thus
discounting the probability that the scandals would
cause Plaintiffs to receive an impartial hearing.
Fourth, the specific instances of historic corruption
perpetrated by Newmont are unlikely to recur.
1. Deeming an alternative forum inadequate is
an exceptional conclusion. In ordering remand, the
Court of Appeals has asked me to review newly
available evidence only as it might affect my analysis
at Eurofins step one, that is, whether Newmont has
shown Peru to be an adequate alternative forum in
light of supervening instances of corruption that came
after my dismissal, none of which involved Newmont.
ECF 96, at 8. The parties agree that my analysis on
remand is so limited. ECF 99, at 8; ECF 107, at 3-4.
While the burden of satisfying that factor
remains with Newmont, the Supreme Court has long
held that it is the “rare circumstance[]” in which the
alternative forum is deemed inadequate. See Piper
Aircraft, 454 U.S. at 254 n.22; see also ECF 96, at 7
(noting that “in the rare circumstance . . . the other
forum may not be an adequate alternative” (cleaned

41a
up)6). Moreover, as I observed in my initial opinion,
theories of “generalized corruption” have “not enjoyed
a particularly impressive track record,” and Newmont
had previously shown that Plaintiffs’ allegations of
specific corruption did not render the Peruvian forum
unsatisfactory. ECF 92, at 13. The State Department
periodically evaluates the legal systems of foreign
nations, and has not downgraded Peru’s judiciary
since my earlier ruling or issued any advisory
contradicting conclusions it drew before the White
Collars of the Port case emerged. See ECF 126, at
41:11-42:9 (discussing 2016 and 2019 State
Department Human Rights Reports).
2. Newmont has shown the Peruvian forum to
be generally adequate notwithstanding the serious
scandals that have plagued the judiciary for the past
two years. Newmont has shown that Peru remains
generally an adequate forum for several reasons. First,
the Peruvian government aggressively pursued
administrative, civil, and criminal sanctions for the
principal actors involved in the White Collars of the
Port case. The Callao appeals court judge was
suspended, see ECF 101, ¶ 8, then arrested, see ECF
108, ¶ IV.8. All members of the National Magistrates
Council were impeached and dismissed, ECF 101, ¶
18, the Council was disbanded and replaced, id., and
at least one of the three members implicated in the
phone recordings has been prohibited from leaving the
This opinion uses (cleaned up) to indicate that extraneous,
nonsubstantive information—like brackets, internal quotation
marks, alterations, and citations—has been omitted from
quotations. See, e.g., United States v. Steward, 880 F.3d 983, 986
n.3 (8th Cir. 2018); United States v. Reyes, 866 F.3d 316, 321 (5th
Cir. 2017).
6

42a
country. ECF 108, ¶ IV.8. César Hinostroza, the
Supreme Court judge caught on the recordings, was
suspended from his post and ordered to remain in
Peru. He thereafter left Peru but was captured in
Spain, and awaits extradition. ECF 101, ¶ 12; ECF
108, ¶ IV.8.
Second, the Peruvian government has
instituted a series of reforms to ensure similar
instances of corruption do not recur. The National
Magistrates Council was abolished and replaced with
a new organization, the National Board of Justice.
ECF 101, ¶ 14-17. Peru’s Congress constituted the
Board last year after President Vizcarra proposed it
in his package of judicial reforms. Like the Council it
replaced, the Board will appoint judges and
prosecutors, among other positions. As of January
2020, the Board is fully staffed and has begun work. 7
According to its new president, the justice board will
spend most of the next few months reviewing
thousands of cases ruled on by the Magistrates
Council concerning appointments, ratifications and
disciplinary processes of judges and prosecutors.
Plaintiffs argue that the “reform efforts implemented
by the Peruvian government” to address the
“structural problems” that made the corruption
possible “are insufficient.” ECF 99, at 6. But much of
Plaintiffs’ evidence centers on the corruption infecting
the National Magistrates Council and the difficulty
the National Board of Justice had in becoming fully
staffed. See, e.g., ECF 126, at 10:7-13:16. Both
problems have since been rectified.

See National Board of Justice begins its task, reviewing court
appointments, Peruvian Times (Jan. 22, 2020) (accessed online).
7

43a
Third, the political instability resulting from
the scandals seems to have calmed. Peru held
legislative elections in late January and the political
party targeted by the government for its ongoing role
in corruption lost badly.8 In Leon, the Eleventh
Circuit case on which the Court of Appeals relied in
ordering remand, the court declined to find Ecuador
inadequate despite a “military coup” that had
occurred just months before the district court’s
opinion and that had “overthrown the democratically
elected president.” 251 F.3d at 1313 n.3. The Leon
Court reasoned that the coup was of little relevance to
the forum-adequacy analysis because the litigants
“were private parties only” and the case “implicate[d]
no sovereign interests.” Id. The court further noted
that there was “some reason to believe that the
Ecuadorian government has stabilized in the past
year,” and cited to a news report that “describe[ed]
peaceful protests on [the] anniversary of [the] coup,
without backing from the armed forces.” Id. The
circumstances in Peru seem more placid than the
circumstances at play in Leon.
In all, the Peruvian government appears to
have taken appropriate steps to address the scandals
that have plagued the judiciary, and those steps
suggest that corruption is not a feature of the
judiciary or the current political regime. None of the
declared states of emergency halted the normal
adjudication of cases. All states of emergencies have
since expired by their own terms, and the most
relevant one (the judicial state of emergency) expired
Marcelo Rochabrum, ‘Stunning Defeat’: Fujimori’s Ghost Fades
in Peru After Legislative Gamble, Reuters (Jan. 27, 2020)
(accessed online).
8

44a
last year. As in Leon, the parties to this case and the
subject matter involved “implicate no sovereign
interests.” Peru held legislative elections, and no
major entity is challenging the results. As it stands,
the Peruvian government appears imperfect, but
functional.
3. The White Collars of the Port case did not
involve Cajamarca or the types of claims raised by
Plaintiffs. In Leon, the Court focused its forumadequacy analysis on whether the defendants had
persuaded the Court that the alleged corruption was
the type “typically associated with the adjudication of
similar claims [to plaintiffs’ claims]” and “so severe as
to call the adequacy of the forum into doubt.” Id. at
1312. Here, most corruption constituting the White
Collars of the Port case had nothing to do with the
adjudication of cases. As Newmont demonstrates, the
corruption mostly involved efforts by officials to trade
their powers for certain personal benefits. ECF 108,
¶¶ II.3.b, III.11. Newmont points out that the
investigations resulting from the scandals have
“uncovered only a few instances of corrupt actors who
have manipulated or otherwise influenced the
outcome of pending cases.” ECF 107, at 8. Any such
instance of case manipulation is no doubt serious, as
Newmont concedes. Id. But such limited instances of
corruption do not speak directly to whether these
Plaintiffs can obtain a fair hearing in Peruvian courts,
or suggest that the entire Peruvian judiciary is
compromised. Plaintiffs argue that “[t]he scandal
implicated the whole of Peru’s judiciary, and there are
surely more revelations to come.” ECF 113, at 3. That
may have been true when the scandal was fresh, but
given the reforms instigated by the government that
eventuality seems unlikely now.

45a
4. Newmont also has shown that the specific
instances of corruption highlighted by Plaintiffs are
unlikely to recur. Finally, Newmont demonstrates
that the corruption comprising the White Collars of
the Port case does not make the historic allegations of
corruption perpetuated by Newmont likely to occur
again. Take, for instance, Newmont’s alleged
corruption of the Cajamarca judiciary in cases
involving Plaintiffs. Plaintiffs have identified various
instances of suspicious court behavior in criminal
proceedings that they have participated in. Plaintiffs
claim that a trial court refused to accept some of
Plaintiffs’ evidence. Plaintiffs also assert that, in
criminal proceedings against them in Peru,
Newmont’s lawyer hand-delivered the guilty sentence
to the Peruvian judge who, after issuing the sentence,
admitted that Newmont had given an “economic
benefit” to the prosecutor to bring the case against
Plaintiffs. To support these allegations, Plaintiffs rely
on sworn declarations. See ECF 99, at 7; Vasquez
Decl., Ex. 19, ECF No. 43-1; Ysidora Chaupe Decl., Ex.
6, ECF No. 27-1.9
To combat Plaintiffs’ allegations, Newmont
offers two forms of evidence. First, Newmont submits
Newmont seems to discount the veracity of sworn testimony,
noting that Plaintiffs’ “only ‘evidence’ consists of declarations
from Plaintiffs’ Peruvian counsel and one of the Plaintiffs.” ECF
107, at 12. I am not as willing to do so. Testimony under oath, to
which we attach the penalty of perjury, must be accorded
substantial weight. In cases alleging fraud, testimony of this sort
could form the bulk of the evidence. If Newmont or its agent had
given the prosecutor an economic benefit to rule in its favor,
which was thereafter disclosed by the judge, it is plausible that
the only evidence would be a witness’s testimony recounting the
disclosure.
9

46a
its own declarations, declaring Plaintiffs’ assertions
false. ECF 107, at 12-13. If all I had before me were
competing declarations, then Newmont might not be
able to carry its burden of persuasion on this issue.
But Newmont offers additional evidence. Newmont
demonstrates that, notwithstanding the supervening
corruption scandals, Plaintiffs have succeeded within
the very judicial system they ask me to deem
inadequate. Plaintiffs have prevailed against
Newmont before the Cajamarca trial court, the
regional appeals court, and the Peruvian Supreme
Court. ECF 107, at 13 (citing dockets). The Court of
Appeals instructed this Court to determine whether
“corruption in the appellate courts of Peru” could
“undermine confidence that they can serve as
protection against Newmont’s alleged capture of the
lower courts.” ECF 96, at 6. It should not. As
Newmont observes, Plaintiffs have received favorable
decisions from every level of the Peruvian court
system, including during the pendency of the White
Collars of the Port scandal. ECF 108, ¶ II.3.c.
Plaintiffs also reassert as evidence Newmont’s
corruption of a Peruvian Supreme Court judge. In
2000, Newmont Second Capital Corporation and
several other entities were seeking control of
Yanacocha. The fight for control became tied up in the
Peruvian courts. Lawrence Kurlander, a Cornelltrained lawyer who was then a Newmont executive,
allegedly asked Vladimiro Montesinos, then head of
Peru’s secret police, to intervene with the Peruvian
courts to ensure that Newmont’s interests would be
protected. See ECF 43-1, Ex. 1, ¶ 9. Montesinos
subsequently pressured a Supreme Court judge to
protect Newmont’s interests and that judge cast the
decisive vote in Newmont’s favor. ECF 92, at 11.

47a
Kurlander has conceded that he visited Montesinos on
Newmont’s behalf, but denies doing anything
untoward.10
In my initial opinion, I concluded that such an
episode was unlikely to recur. For one, the original
corrupting happened two decades ago under the
infamously corrupt Fujimori regime. See id. at 16. I
recognized that the “interim regime change and noted
improvements” in the ensuing decades made it
unlikely that Newmont would try again to corrupt a
court official. The Court of Appeals questioned
whether the recent instances of corruption “call[ed]
into question these ‘noted improvements.’” ECF 96, at
5-6. It is true that some corruption can make other
corruption more likely, but Newmont shows how
A recording of Kurlander’s conversation with Montesinos has
been published, and Kurlander has conceded its authenticity.
According to Kurlander, he first went to the United States
government for assistance with Newmont’s bid to acquire
Yanacocha, but officials declined to intervene. Instead, according
to Kurlander, the United States government encouraged him to
visit Montesinos. Kurlander admits that he went to Montesinos
to help Newmont “level the playing field,” but denies ever paying
him a bribe. According to Kurland, Newmont was “very confident
that we would win on the merits, but that if there was
inappropriate behavior, we couldn’t win.” Kurlander and
Newmont were worried that the French government—their main
adversary in their attempt to acquire Yanacocha— was acting
improperly. Kurlander claims he “was not asking for anybody to
intervene on our behalf,” only “asking [the Peruvian government]
to stop the French from doing what they were doing. Period.” See
Interview
with
Larry
Kurlander,
https://www.pbs.org/frontlineworld/stories/peru404/kurlander.h
tml (transcript of interview that took place in May and
September of 2005). For additional in-depth reporting, see Jane
Perlez and Lowell Bergman, Tangled Strands in Fight Over Peru
Gold Mine, N.Y. Times (June 14, 2010) (accessed online).
10

48a
Plaintiffs’ evidence is lacking here. The corruption
allegedly perpetuated by Kurlander and other
Newmont executives involved the intelligence
agencies of the executive branch. Since then, the
dictatorial regime led by Fujimori ended, Fujimori
himself has spent much of the last decade in prison,
and recent national elections decimated whatever
control his legacy political party may have had.
Moreover, the circumstances here differ
markedly from the actual corruption perpetrated by
Kurlander and other executives in the late 1990s.
After Kurlander visited Montesinos, Newmont
succeeded in its attempt to acquire Yanacocha. Now,
by contrast, action by the Peruvian government has
led to Yanacocha suspending its mining operations in
the region in which Plaintiffs reside. Moreover,
Plaintiffs have acknowledged various ways the
Peruvian government has been responsive to their
concerns. Plaintiffs state that the government “will
travel to Tragadero Grande twice a month . . . to verify
[their safety],” and that it “will also pay for [their]
phone bills.” ECF 1, ¶ 350. Plaintiffs also have
acknowledged that the Peruvian Minister of Justice
and Human Rights affirmed that the “government
was coordinating with the police on a protection plan”
for Plaintiffs. Id. ¶ 351. And since at least 2015, the
Peruvian National Police have not been involved with
Yanacocha’s exercises of its possessory defense
against Plaintiffs. See ECF 37, at 6 n.4. At argument,
counsel for Plaintiffs acknowledged that Newmont
was honoring its commitment to allow Plaintiffs
access to the disputed land. ECF 126, at 6:8-7:5.
Newmont, to its credit, appears to have
engaged in serious corporate reforms in its own right.

49a
Kurlander retired from the company in 2002, and
Newmont has since developed a robust and rigorously
enforced ethics and compliance program. Declaration
of Nancy Lipson ¶¶ 2-4, ECF 109. That program
prohibits the kind of corrupt conduct Kurlander and
other Newmont executives allegedly engaged in
twenty years ago, as well as the kind of conduct
Plaintiffs allege will happen if these cases are heard
in Peru. As I recognized in my initial opinion,
Newmont has endorsed and adopted established
human rights frameworks such as the United Nations
Guiding Principles on Business and Human Rights
and the Voluntary Principles on Security and Human
Rights, in addition to a series of internal policies and
standards. Newmont also has made efforts to
investigate alleged abuses by their subsidiaries. See
ECF 92, at 18-20. Further, if the kind of conduct
Plaintiffs allege will happen if these cases are heard
in Peru does happen, Newmont executives could easily
run afoul of certain United States laws, including the
Foreign Corrupt Practices Act. 11
For these reasons, I conclude that the recent
developments in Peru do not disturb my initial
This is not simply hypothetical. Mr. Kurlander identified the
Foreign Corrupt Practices Act as a piece of evidence in his favor
for why he could not have bribed Peruvian officials. But
Kurlander’s argument is a tautology. Every criminal act is
committed against the backdrop of some law prohibiting that act.
It is thus no defense to an accusation of criminality that
criminality was impossible because the law made it so.
Nevertheless, Kurlander’s awareness that the law could apply to
the bribing of a foreign official—the same kind of bribery
Plaintiffs are predicting could happen here—suggests that the
Newmont executives were undoubtedly aware of various legal
limits on their behavior. See Interview with Kurlander, supra
note 10.
11

50a
conclusion that, under the appropriate forum non
conveniens framework, Newmont has carried its
burden to demonstrate that Peru is an adequate
alternative judicial forum. Because the other forum
non conveniens remain in favor of dismissing this case,
I will grant Newmont’s motion, subject to the various
conditions attached to the Order.
III.

Conclusion

On June 20, 2014, Judge Thomy Paul Padilla
Mantilla held an oral hearing involving various of the
Plaintiffs here for their alleged crime of “usurpation”
against Yanacocha. According to a record of that
hearing, upon its completion, a French national,
apparently not affiliated with either party,
approached the Judge as an outside observer with an
admonition: “A fin de indicarme que sobre este proceso
se encuentran los ojos del mundo,” she said—the eyes
of the world are watching how these proceedings
unfold. See ECF 111, Ex. C, at 165, 192. As noted in
my earlier opinion, Plaintiffs have generated intense
interest in their cause, with all the salutary effects
such public attention brings.
Corruption of courts by private actors is
pernicious. But attempts to corrupt need not disable
independent judiciaries from delivering equal justice
under law. What is most pertinent here is the response
in Peru from the public and other governmental
institutions when the integrity of its judiciary was
compromised. That response has shown a
determination to restore the credibility of the courts,
and there has been objectively observable progress in
doing so. Newmont has satisfied me that the entire
judiciary of Peru cannot be deemed inadequate, and
further satisfied me that Plaintiffs here, citizens and

51a
natives of Peru, can be treated fairly by Peruvian
courts in a dispute involving a United States
corporation.
I will therefore grant Newmont’s motion to
dismiss, subject to the same conditions set forth in my
earlier Order.

/s/ Gerald Austin McHugh
Gerald Austin McHugh
United States District Judge

52a
APPENDIX E
________________________________
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2042

MAXIMA ACUNA-ATALAYA;
DANIEL CHAUPE-ACUNA;
JILDA CHAUPE-ACUNA;
CARLOS CHAUPE-ACUNA;
YSIDORA CHAUPE-ACUNA,
personally and on behalf of her minor child M.S.C.C.;
MARIBEL HIL-BRIONES;
ELIAS CHAVEZ-RODRIGUEZ,
personally and on behalf of his minor child M.S.C.C.,
Appellants
v.
NEWMONT MINING CORPORATION;
NEWMONT SECOND CAPITAL CORPORATION;
NEWMONT USA LIMITED;
NEWMONT PERU LIMITED

On Appeal from the United States District Court
for the District of Delaware

53a
(D.C. No. 1-17-cv-01315)
District Judge: Honorable Gerald A. McHugh

Submitted Under Third Circuit LAR 34.1(a)
January 24, 2019
Before: JORDAN, KRAUSE, and ROTH, Circuit
Judges
JUDGMENT
This cause came on to be heard on the record
before the District of Delaware and was submitted
pursuant to Third Circuit LAR 34.1(a) on January 24,
2019. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the
order of the District Court entered on April 11, 2018,
be and the same is hereby REVERSED and
VACATED, and the cause is REMANDED to the
District Court for proceedings consistent with this
opinion. All of the above in accordance with the
opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: March 20, 2019

54a
APPENDIX F
________________________________
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2042

MAXIMA ACUNA-ATALAYA;
DANIEL CHAUPE-ACUNA;
JILDA CHAUPE-ACUNA;
CARLOS CHAUPE-ACUNA;
YSIDORA CHAUPE-ACUNA,
personally and on behalf of her minor child M.S.C.C.;
MARIBEL HIL-BRIONES;
ELIAS CHAVEZ-RODRIGUEZ,
personally and on behalf of his minor child M.S.C.C.,
Appellants
v.
NEWMONT MINING CORPORATION;
NEWMONT SECOND CAPITAL CORPORATION;
NEWMONT USA LIMITED;
NEWMONT PERU LIMITED

55a
On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-17-cv-01315)
District Judge: Honorable Gerald A. McHugh

Submitted Under Third Circuit LAR 34.1(a)
January 24, 2019
Before: JORDAN, KRAUSE, and ROTH, Circuit
Judges
(Opinion filed: March 20, 2019)

OPINION*

KRAUSE, Circuit Judge.
Appellants challenge the District Court’s forum
non conveniens dismissal of their complaint, which
would send their dispute over a parcel of Peruvian
land back to Peru. Without addressing the merits of
Appellants’ challenge, we will remand for the District
Court to reevaluate whether Peru is an adequate
alternative forum in light of a supervening corruption
This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.
*

56a
scandal that has prompted the Peruvian judiciary and
Peru’s Congress to declare a state of emergency.
I.

Background

This case arises from a conflict over a tract of
land in Cajamarca, Peru between a family of Peruvian
farmers residing on the land (Appellants) and several
Delaware-incorporated entities—Newmont Mining
Corporation, Newmont Second Capital Corporation,
Newmont USA Ltd., and Newmont Peru Ltd.
(collectively, “Newmont”)— that own a mining
company operating in the region. Appellants brought
suit in the District of Delaware contending that
Newmont’s agents have used violence and other
illegal tactics to evict them from their farm, which sits
on top of a gold deposit. They opted not to proceed in
Peru and, instead, to seek relief in Delaware because
they assert that the Peruvian courts, including the
trial courts in Cajamarca, are corrupt and will not
fairly adjudicate their case. According to Appellants,
Newmont has already exercised improper influence
over prosecutors, judges, and other government actors
in Peru.
In October 2017, Newmont moved for dismissal
on forum non conveniens grounds, asserting that the
sources of proof and the key witnesses are located in
Cajamarca. The District Court granted the motion
and dismissed the complaint on April 11, 2018,
concluding
that—notwithstanding
Appellants’
allegations of corruption—Peru was an adequate
alternative forum and the relevant forum non
conveniens criteria otherwise favored dismissal. See
Eurofins Pharma US Holdings v. BioAlliance Pharma
SA, 623 F.3d 147, 160 (3d Cir. 2010) (identifying the
relevant factors in a forum non conveniens inquiry).

57a
This appeal followed, and for the reasons set forth
below, we will remand for the District Court to
reconsider its prior determination that Peru is an
adequate forum.
II.

Discussion1

If changed factual circumstances “cast a
different light on a[] [district court’s] earlier ruling,”
regardless of its correctness when made, an appellate
court may reverse the ruling and remand. United
States v. Wilson, 601 F.2d 95, 98–99 (3d Cir. 1979); see
Bank of Credit & Commerce Int’l (Overseas) Ltd. v.
State Bank of Pakistan, 273 F.3d 241, 247 (2d Cir.
2001) (noting that where a district court dismisses a
complaint on forum non conveniens grounds, and such
changed circumstances materially affect the district
court’s prior assessment of the proposed alternative
forum, it is often “prudent to vacate the district court’s
dismissal order and remand, so that the district court
can consider the implications” of those changes).
Here, although the District Court meticulously
reviewed the then-existing record and engaged in a
rigorous analysis, there have been significant factual
developments post-dating its dismissal that cast its
ruling in a different light. In mid-2018, a set of
secretly recorded phone conversations among
Peruvian judges and judicial officials surfaced,
revealing a disturbing series of improper quid pro quo
exchanges, including an offer by a Supreme Court
The District Court exercised subject matter jurisdiction
under 28 U.S.C. § 1332(a)(2), and this Court has subject matter
jurisdiction under 28 U.S.C. § 1291. We review a district court’s
dismissal of a complaint on forum non conveniens grounds for
abuse of discretion. Windt v. Qwest Commc’ns Int’l, Inc., 529 F.3d
183, 189 (3d Cir. 2008).
1

58a
judge to reduce a prison sentence for an unidentified
personal favor.2 Citing the “institutional crisis,” even
the head of Peru’s Supreme Court stepped down,
although he was not personally accused of any
wrongdoing.3 This widening scandal also prompted
the Peruvian Judicial Branch to declare a ninety-day
state of emergency starting in July of 2018. 4 And
around the same time, Peru’s Congress declared a
nine-month state of emergency—still in effect—for
Peru’s National Magistrates Council, the body that
appoints judges and prosecutors.5 Following these
state-of-emergency declarations, Peru’s president
issued a statement that the Peruvian “system for
See Rebecca Tan, Leaked calls reveal systemic
corruption in Peru’s judiciary, sparking flurry of resignations,
Washington
Post
(July
20,
2018),
https://www.washingtonpost.com/news/worldviews/wp/2018/07/
20/leaked-calls-reveal-systemic-corruption-in-perus-judiciarysparking-flurry-of-resignations. As with this and the sources
referenced below, “we may take judicial notice at any stage of the
proceeding of a fact not subject to reasonable dispute that is
capable of accurate and ready determination by resort to a source
whose accuracy cannot be reasonably questioned.” Ieradi v.
Mylan Labs., Inc., 230 F.3d 594, 600 n.3 (3d Cir. 2000).
2

Marco Aquino, Head of Peru’s judiciary resigns as crisis
grips justice system, Reuters (July 19, 2018, 2:14 PM),
https://www.reuters.com/article/us-peru-corruptionresignation/head-of-perus-judiciary-resigns-as-crisis-gripsjustice-system- idUSKBN1K92OH.
3

See Peru declares emergency at Judicial Branch,
Andina (July 18, 2018, 1:25 PM), https://andina.pe/ingles/noticiaperu-declares-emergency-at-judicial-branch- 717943.aspx.
4

See Peru’s congress declares judiciary in state of
emergency, LatinNews (July 24, 2018),
5

https://www.latinnews.com/component/k2/item/76979.html?peri
od=2018&archive=1&ca t_id=813281:peru-s-congress-declaresjudiciary-in-state-of-emergency; Aquino, supra.

59a
administering justice has collapsed” and proposed a
slate of reforms aimed at curtailing corruption.6
These developments may bear on the District
Court’s conclusions about the Peruvian judiciary’s
impartiality. For example, the District Court
discounted an older well-publicized story about
Newmont successfully pressuring a Peruvian
Supreme Court judge to rule favorably in its case,
reasoning that “the events in question occurred some
18 years ago, around the time when the regime of an
infamously corrupt president . . . imploded[,] [and]
[t]he interim regime change and noted improvements
since” mitigate concerns about similar events
recurring. Acuna-Atalaya v. Newmont Mining Corp.,
308 F. Supp. 3d 812, 823–24 (D. Del. 2018). The recent
exposure of corruption among the judicial system’s top
ranks and the two resulting state-of-emergency
declarations call into question these “noted
improvements.” Similarly, Appellants assert that, in
criminal proceedings against them in Peru,
Newmont’s lawyer hand-delivered the guilty sentence
to the Peruvian judge who, after issuing the sentence,
admitted that Newmont had given an “economic
benefit” to the prosecutor to bring the case against
Appellants. Id. at 824. Though the District Court
found this account “troubling,” the Court’s concerns
were mitigated in part by the fact that Appellants had
achieved some “success . . . in the appellate courts [of
Peru].” Id. at 825. But the recent disclosures raise the
specter of corruption in the appellate courts of Peru
Peru sets referendum to ‘legitimize’ reforms after
scandal, New Straits Times (July 29, 2018, 7:46 AM),
https://www.nst.com.my/world/2018/07/395569/peru-setsreferendum-legitimize-reforms-after-scandal.
6

60a
and undermine confidence that they can serve as a
protection against Newmont’s alleged capture of the
lower courts.
Moreover, Appellants have offered other
particularized
evidence
regarding
Appellees’
influence in those courts, such as the account of
Appellants’ attorney in Peru, who pointed out
multiple examples of suspicious court behavior in the
criminal proceedings discussed above, including the
court’s refusal to accept some of her evidence and the
fact that the prosecutors received a copy of the
judgment before she did. See id. at 824. While the
publicity around the recent scandal has not centered
on Cajamarca trial courts, a factfinder could conclude
that this case-specific evidence carries greater weight
in the context of a judicial system permeated by
corruption problems than it would in the absence of
such problems. Because the forum non conveniens
inquiry is generally “committed to the sound
discretion of the trial court,” Piper Aircraft Co. v.
Reyno, 454 U.S. 235, 257 (1981), we leave it to the
District Court to assess in the first instance whether
and to what extent these developments affect its
conclusions here.
As the District Court undertakes this analysis
on remand, we trust it will be mindful of the proper
allocation of the burden of proof and the standards
that must be satisfied, including that the burden of
persuasion on a forum non conveniens motion lies
with the defendant. See Lacey v. Cessna Aircraft Co.,
862 F.2d 38, 43–44 (3d Cir. 1988). At the outset, the
defendant must show that “there exists an alternative
forum,” a requirement which “[o]rdinarily . . . will be
satisfied when the defendant is ‘amenable to process’

61a
in the other jurisdiction,” Piper Aircraft, 454 U.S. at
254 n.22 (citation omitted), and “dismissal on grounds
of forum non conveniens may be granted even though
the law applicable in the alternative forum is less
favorable to the plaintiff’s chance of recovery,” id. at
250. However, “[i]n [the] rare circumstance[] . . .
where the remedy offered by the other forum is clearly
unsatisfactory, the other forum may not be an
adequate alternative,” id. at 254 n.22, such as where
“the remedy provided by the alternative forum is so
clearly inadequate or unsatisfactory that it is no
remedy at all,” id. at 254, or—as relevant here—
where the plaintiff “will be . . . treated unfairly,” id. at
255.
While the Supreme Court has not yet spoken to
particular burdens or standards associated with a
plaintiff’s assertion of unfair treatment in this context,
the Eleventh Circuit has done so, offering a logical and
persuasive approach: “defendants have the ultimate
burden of persuasion, but only where the plaintiff has
substantiated his allegations of serious corruption or
delay. . . . [W]here the allegations are insubstantially
supported, . . . a District Court may reject them
without considering any evidence from the defendant.
But where the plaintiff produces significant evidence
documenting the partiality or delay (in years)
typically associated with the adjudication of similar
claims and these conditions are so severe as to call the
adequacy of the forum into doubt, then the defendant
has the burden to persuade the District Court that the
facts are otherwise.” Leon v. Millon Air, Inc., 251 F.3d
1305, 1312 (11th Cir. 2001); see also Daventree Ltd. v.
Republic of Azerbaijan, 349 F. Supp. 2d 736, 756
(S.D.N.Y. 2004) (“In contrast with general allegations
of corruption, the possibility that the Sovereign

62a
defendants could dictate the outcome of this dispute
through their control over Azeri courts would
effectively foreclose the plaintiffs’ right to pursue their
claims and render the Azerbaijan courts an
inadequate forum.”).
The District Court in this case carefully
reviewed the record then before it and helpfully
facilitated appellate review by laying out its reasoning
in a thorough and thoughtful opinion. We appreciate
those efforts and will leave it to the District Court,
bearing in mind the relevant burdens and taking
account of the recent developments in Peru, to
consider the record as supplemented and to rule on
the adequacy of the proposed alternative forum.
III.

Conclusion

For the aforementioned reasons, we will vacate
the District Court’s April 11, 2018 order and will
remand for proceedings consistent with this opinion.

63a
APPENDIX G
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

MÁXIMA ACUÑA-ATALAYA,
et al.
Plaintiffs,

CIVIL ACTION
No. 17-1315

v.
NEWMONT MINING
CORPORATION, et al.,
Defendants.

ORDER
This 11th day of April, 2018, it is hereby
ORDERED that Defendants’ Motion to Dismiss on
the basis of forum non conveniens, (ECF No. 14), is
GRANTED, subject to the following conditions:
1) Defendants in this action must submit to
the jurisdiction of the appropriate court in
Peru, and that Court must accept
jurisdiction;
2) Defendants must stipulate that any
judgment entered in Peru qualifies as

64a
legally adequate under Delaware law,
including 10 Del. Code. § 4803(b);
3) Defendants may not directly, or indirectly
through their subsidiaries and affiliates in
Peru, raise objection to any of Defendants’
officers or employees testifying or
providing evidence relevant to the claims
asserted by Plaintiffs, whether such
evidence is sought here or in Peru.
This dismissal is without prejudice.
Defendants’ Motion for Protective Order, (ECF
No. 70), is DENIED as moot.
Plaintiffs’ Motion for Preliminary Injunction
(ECF No. 26) is DENIED, based solely upon the
Court’s decision to transfer this action. Such denial is
not, and should not be construed as, a substantive
decision as to the merits of the Motion.

/s/ Gerald Austin McHugh
United States District Judge

65a
APPENDIX H
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

MÁXIMA ACUÑA-ATALAYA,
et al.
Plaintiffs,

CIVIL ACTION
No. 17-1315

v.
NEWMONT MINING
CORPORATION, et al.,
Defendants.

McHUGH, J.

April 11, 2018
MEMORANDUM

This case arises out of a land dispute between
indigenous subsistence farmers in Peru and the
Peruvian subsidiary of a multi-national gold mining
company headquartered in the United States. At the
forefront is a rancorous struggle over the right to
occupy the land in question, amid years-long litigation
in Peruvian courts. Plaintiffs Máxima Acuña-Atalaya
de Chaupe and her family complain of repeated
invasions of their farm, alleging threats on their lives,
assaults, and destruction of livestock and crops. They
have brought this action in Delaware, seeking to hold
the American parent companies responsible for

66a
actions taken by their subsidiary on the ground in
Peru, contending that Peruvian courts are inadequate
to protect them. Defendant Newmont Mining
Corporation and its affiliates strongly contest the
facts, and have moved to dismiss invoking forum non
conveniens (FNC).
The ultimate question in the underlying
dispute—how American corporations conduct their
affairs in less developed nations—has profound moral
implications. But the issues before me are legal and
practical. On the record here, I conclude that this case
is centered in Peru. There are intense disputes over
baseline facts for which the evidence is in Peru. There
is ongoing litigation there, governed exclusively by
Peruvian law, and some of the conduct Plaintiffs
challenge here would appear to be permissible under
that law. And though there are reasons to be
concerned about the Peruvian judicial system, I
cannot say that it is clearly inadequate as a forum. I
will therefore grant Defendants’ Motion, but mindful
of some of the concerns Plaintiffs raise, address them
by attaching conditions to dismissal.
I. Relevant Facts
This is an unusual case brought by Peruvian
citizens living in a remote, mountainous area against
the U.S.-based Newmont Mining Corporation and
affiliated entities, which are engaged in the business
of mining gold around the world. The area in question
was long thought to harbor gold, a suspicion that was
confirmed by developmental drilling in the 1980s. In
1993, with the support of the Peruvian government,
the International Finance Corporation, an affiliate of
the World Bank, made a substantial loan to Newmont
and a French-based partner for development of a mine.

67a
That mine opened and substantial amounts of gold
were recovered, although the venture was affected by
disputes between the companies forming the
partnership and by environmental damage, resulting
in litigation in both the United States and Peru. Local
protests erupted, sometimes ending in violence, both
as a reaction to the environmental toll exacted by the
project and to a proposal to further expand the mining
operation. It is that proposed expansion that gives rise
to this case.
Plaintiffs Máxima Acuña-Atalaya de Chaupe
and her family are indigenous campesinos residing in
the Northern Andes region of Peru on a parcel of land
in an area they refer to as “Tragadero Grande.”1
Máxima and her husband Jaime Chaupe Lozano
represent that they purchased possessory rights to
that parcel from a family member in 1994. At the time
they made that purchase, Tragadero Grande was part
of communal land that belonged to the Campesino
Community of Sorochuco. Over the next five years, a
Peruvian mining company known as Minas Conga
underwent an extensive two-part process to acquire
that communal land, which it then sold to Defendants’
subsidiary,
Minera
Yanacocha
[hereinafter
2
“Yanacocha”] in 2001. Step one involved acquiring
the communal land, and Step two purchasing the
possessory rights of each individual member of the
community. After acquiring the communal land,
“Tragadero” means “throat” or “gullet” in Spanish. Hence, the
name “Tragadero Grande” derives from the fact that the point
where rainwater infiltrates the land is relatively large. See Defs.’
P.I. Resp. Ex. 1A, ECF No. 38-1.
1

Minas Conga ceased to exist sometime after that transfer. Pls.’
P.I. Mot. Ex. 16 at v., ECF No. 27-16.
2

68a
Minas Conga divided it into two units, and re-named
these units to correspond with the two separate land
titles, which for our purposes will be referred to as the
“Southern Parcel” and the “Northern Parcel.” It then
continued with the two-part process by negotiating
with individual possessors, like the Chaupes, to
purchase their possessory rights. There is a dispute
over whether the Chaupes were parties to Minas
Conga’s negotiations and ultimately sold their
possessory rights to Tragadero Grande, which now
straddles both the Northern and Southern Parcels.
That issue is being litigated in another case in Peru.
Meanwhile, the Chaupe family has a cottage on
the Northern Parcel. Defendants contend that
Plaintiffs illegally occupied the land in 2011. See Defs.’
P.I. Resp. Ex. 1A, ECF No. 38-1. Plaintiffs counter
that they have lived and farmed on that parcel since
they purchased their possessory rights in 1994. But,
according to Plaintiffs, beginning in 2011, security
personnel consisting of Yanacocha staff, the
contracted Peruvian National Police (PNP), and the
private security company Securitas threatened, and
continued their assault on various other family
members. Id. at 4–5. Plaintiffs allege that some
combination of these entities physically attacked,
destroyed the property of, and terrorized Plaintiffs.
Pls.’ P.I. Mot. 4, ECF No. 28. For example, Plaintiffs
contend that in August 2011, Yanacocha security
personnel destroyed their huts, removed crops they
had planted, struck Plaintiff Máxima on her arms and
legs with sticks, and knocked Plaintiff Jilda
unconscious with the same sticks. Plaintiffs further
allege that the purpose of these attacks was to
dispossess them of their portion of the land in order to
facilitate the development of the proposed new gold

69a
mine, referred to as the Conga Project, operated by
Defendants and their Peruvian subsidiary.
That project would represent a $4.8 billion
expansion to Yanacocha’s operations. As proposed, the
expansion would eradicate four mountain lakes,
raising concerns that it would threaten the water
supply serving over 200 communities in the region,
particularly in light of earlier problems. The Peruvian
government initially approved the project over “broad
community opposition” in 2010. Compl. ¶¶ 55–56,
ECF No. 1. But about a year later, that widespread
community
opposition,
coupled
with
public
demonstrations, resulted in the government doubling
back and suspending the operation. In part as a result,
Defendant Newmont Mining Corporation told the
SEC in 2016 that “it does not anticipate being able to
develop Conga for at least the next five years.” Id. ¶
62. But Plaintiffs allege that none of that has stopped
the abuses and efforts to dispossess them.
They have therefore brought this action in
Delaware against Newmont Mining Corporation and
three of its subsidiaries: Newmont Second Capital
Corporation, Newmont USA Limited, and Newmont
Peru Limited. They contend that Defendants are
aware of such abuses, and exercise sufficient control
over Yanacocha and its operations in Peru to be able
to stop them. All of the Defendants are incorporated
in Delaware and headquartered in Denver, Colorado.
Plaintiffs aver that they chose to sue in the United
States because justice cannot be had for them in Peru,
given Yanacocha’s influence over the government and
judiciary.
Defendants contend that Plaintiffs overstate
the extent of Defendants’ direct involvement with and

70a
control over Yanacocha and its security personnel
overseas. They strongly dispute Plaintiffs’ factual
account, alleging that Plaintiffs “omitted key facts
and created or exaggerated others.” Defs.’ P.I. Resp. 2,
ECF No. 37. Specifically, Defendants dispute that
Plaintiffs occupied any portion of Tragadero Grande
at any point between 2001 and 2011. According to
Defendants, Yanacocha has been engaged in
preliminary mining activities on the land since 2001,
including by placing checkpoints to control access, but
did not encounter Plaintiffs until May 2011.
Defendants stress that the most prominent incident
occurred in August 2011, and reject Plaintiffs’ factual
account. Defendants also assert that Yanacocha’s
actions are legally necessary to protect their
possessory rights to the portion they occupy while the
years-long litigation over who has legal right
continues.3 Nonetheless, Yanacocha decided to not
interfere with Plaintiffs’ activities in the portion of the
Northern Parcel Plaintiffs now occupy. Defendants
contend that they did not attempt to dislodge
Plaintiffs until Plaintiffs sought to expand their
occupancy. In addition, Yanacocha has purportedly
established a procedure to allow Plaintiffs access
through Yanacocha’s checkpoints, and has provided
Plaintiffs the direct phone number of high-ranking

Under Peruvian law, one avenue to prevent loss of title in an
ownership dispute where “adverse possession” is the issue is to
engage in “self-help” activities such as ejectment of those
occupying the land. The parties, through their competing legal
experts, dispute whether such action is required for the party
seeking to preserve ownership, but agree that such a legal right
exists. Needless to say, the possibility for physical confrontation
looms large.
3

71a
Yanacocha executives whom they can call for
immediate authorization of entry.
II. Procedural Posture
Plaintiffs seek both injunctive relief and
damages. Defendants move to dismiss, arguing that
Delaware is an inconvenient forum because the
relevant evidence, witnesses, and actors essential to
adjudicating this case are in Peru. In their response
to this Motion, Plaintiffs urge that I first address their
motion for preliminary injunction, which, in part, asks
that I order Defendants and their agents to cease the
alleged harassment of Plaintiffs, bar Defendants and
their subsidiaries from entering Tragadero Grande 4
without Plaintiffs’ permission, and bar them from
attempts to communicate with Plaintiffs except
through counsel.
As an initial matter, I note that a district court
has the power to address FNC at the outset of the case.
Sinochem Int’l Co. v. Malaysia Int’l Shipping Corp.,
549 U.S. 422 (2007). I hesitate to address the petition
for injunctive relief before resolving venue, because
the injunction requested is one that might alter the
status quo, rather than merely preserve it. That is so
because I cannot definitively determine whether
prohibiting Defendants’ subsidiary from engaging in
what they contend are lawful self-help remedies
would prejudice their rights under Peruvian law.
Furthermore, because there is litigation currently
pending in Peru, any order I enter will necessarily
impact that litigation.
On its face, Plaintiffs’ prayer for relief would seem to seek to
bar Defendants and affiliated entities from the entire area,
including parcels over which Plaintiffs have asserted no claim.
4

72a
The leading case where an injunction was
issued despite a pending FNC motion is Republic of
the Philippines v. Marcos, 862 F.2d 1355 (9th Cir.
1988). There, Ferdinand Marcos, the former President
of the Republic of the Philippines, left the Philippines
when he realized his regime was nearing its end.
Republic of Philippines v. Marcos, 818 F.2d 1473, 1475
(9th Cir. 1987), on reh’g, 862 F.2d 1355. The United
States government immediately recognized his
successor, and when the Marcoses arrived in Hawaii
with numerous crates of currency, jewels, precious
metals and the like, the United States Customs
Service impounded them. Id. At the same time, other
assets allegedly belonging to the Marcos family were
turning up around the world. Id. The Republic of the
Philippines launched civil suits in several countries to
recover or freeze specific assets it regarded as
property of the Philippines. Id. In the United States
action, the district judge granted the Republic’s
motion for preliminarily injunction, despite the
pending FNC motion, in order to prevent the assets
from being transferred. The Ninth Circuit affirmed,
because “it was imperative for the district court to
preserve the status quo lest the defendants prevent
resolution of the case by putting their property beyond
the reach of the court.” Republic of Philippines, 862
F.2d at 1364. It also bears mention that the party
seeking the injunction was the newly recognized
government of the Philippines.
The situation here is different. Indeed, if
Defendants’ version is true and Yanacocha has to
engage in these possessory defenses in order to
continue its activities on the portion of the land it now
occupies, a preliminary injunction risks altering the
merits of the underlying land dispute before the court

73a
in Peru. See Defs.’ P.I. Resp. 4, ECF No. 37 (stating
that “the owner must take action, known as a
‘possessory defense,’ within 15 days of learning of the
trespass”). According to the defense, uprooting crops
and displacing newly erected structures is something
that they must do or risk their legal rights. Although
Plaintiffs argue that Yanacocha need not exercise this
defense and suggest that Defendants would be able to
recover any lost land regardless, the competing
experts make that issue a difficult one. In either case,
the injunction sought would by definition change, not
preserve, the situation on the ground in Peru, and
thereby potentially impact the legal proceedings there.
Further, there are practical concerns about the
requested relief that are also relevant to the
discussion of whether Delaware is a convenient forum.
Even assuming that neither party would willfully act
in contravention of an order from this court, I remain
skeptical of the practical impact of an injunction from
a federal judge in Delaware over the actions of third
parties in Peru. That skepticism is especially
warranted where, as here, Defendants represent that
they have taken affirmative steps to protect the rights
of the Plaintiffs, and had limited success. Indeed,
Defendants have presented evidence that security
personnel have been instructed to exercise the utmost
restraint in carrying out these possessory defenses. In
fact, nothing in the video evidence provided by either
side shows the type of abuse asserted by Plaintiffs.
Plaintiffs insist otherwise, contending that abuses
similar to those alleged in their Complaint have
continued even during this case. But if these
additional abuses have continued to occur contrary to
Yanacocha’s instruction, and despite cameras placed
by both parties and journalists documenting the

74a
various encounters, it underscores the limited ability
of an American judge to influence local behavior. And,
as discussed below, part of Plaintiffs’ argument is that
local courts have not implemented Peruvian appellate
court rulings that were in their favor. To the extent
that is true, an American court’s order entered
against Yanacocha’s parent company here is unlikely
to have greater effect.
Similar concerns exist with respect to another
aspect of Plaintiffs’ proposed injunction: Plaintiffs’
allegations that they have faced significant difficulties
when attempting to access their cottage as a result of
Yanacocha’s security checkpoints. Those allegations
persist despite the fact that Defendants presented to
the court established procedures for admitting
Plaintiffs through those checkpoints, and a means of
recourse if Yanacocha’s instructions regarding access
are being violated by the contracted security
personnel on the ground.
For these reasons, I will not decide the pending
motion for an injunction before first considering
whether Delaware is an appropriate forum, which
requires further consideration of many of the same
practical considerations reviewed above.
III. Analysis
FNC is a discretionary tool that empowers a
district court “to dismiss an action on the ground that
a court abroad is the more appropriate and convenient
forum for adjudicating the controversy.” Sinochem,
549 U.S. at 425. To decide whether FNC dismissal is
appropriate, district courts engage in a three-step
analysis. First, the court must determine “whether an
adequate alternate forum” exists to entertain the case.
Eurofins Pharma US Holdings v. BioAlliance Pharma

75a
SA, 623 F.3d 147, 160 (3d Cir. 2010). If so, the court
must next determine “the appropriate amount of
deference to be given the plaintiff’s choice of forum.”
Id. Finally, the court must weigh “the relevant public
and private interest factors”—discussed below—to
determine whether, on balance, “trial in the chosen
forum would result in oppression or vexation to the
defendant out of all proportion to the plaintiff’s
convenience.” Id. If so, or if the chosen forum is
“inappropriate” in light of the court’s own
“administrative and legal problems,” the court “may,
in its discretion,” dismiss the case. Windt v. Qwest
Commc’ns Int’l, Inc., 529 F.3d 183, 189 (3d Cir. 2008)
(citing Koster v. (Am.) Lumbermens Mut. Cas. Co., 330
U.S. 518, 524 (1947)). Defendants seeking dismissal
on the basis of FNC bear the burden of persuasion at
every stage of this analysis, Lacey v. Cessna Aircraft
Co., 862 F.2d 38, 43–44 (3d Cir. 1988) (Lacey I),
against the backdrop of a generally “strong
presumption” in favor of the plaintiff’s choice of forum,
see Piper Aircraft Co. v. Reyno, 454 U.S. 235, 255
(1981).5
Plaintiffs argue that, under Erie R. Co. v. Tompkins, 304 U.S.
64 (1938), Delaware FNC law, which describes Defendants’
burden as “heavy,” should govern, as opposed to the federal
standard I am applying. Both parties requested that I allow
supplemental briefing on this issue if it is material. I did not
grant that request because I am not convinced that the Delaware
standard would warrant a different result, especially given the
Delaware Supreme Court’s recent ruling in Martinez v. E.I.
DuPont de Nemours & Company, 86 A.3d 1102, 1104 (Del. 2014),
which specifically held that “where [. . .] the plaintiff in the case
is a citizen of a foreign state whose law is at issue, and where [. . .]
the injury in the case occurred in that foreign state, and the case
turns on unsettled issues of foreign law, a trial court may
permissibly exercise its discretion under Cryo–Maid to weigh
5

76a
As an initial matter, it must be noted that what
is at issue here is not the ultimate legal question of
the parties’ rights with respect to Tragadero Grande.
Indeed, the case before me is ancillary to that
fundamental underlying dispute. Unlike some other
cases filed in American courts seeking damages for
past unlawful acts of American corporations overseas,
Plaintiffs here seek detailed injunctive relief affecting
an ongoing dispute, even as Peruvian courts attempt
to resolve that dispute. Moreover, this action does not
focus on the broader impact of Newmont’s mining
activities in Peru, such as pollution of the watershed
or treatment of workers; it focuses on multiple
discrete encounters replete with complex factual
disputes, many of which involve third parties,
including local authorities. And, as noted above, some
of the challenged conduct— clearing crops, destroying
structures—is characterized as a permissible remedy
under Peruvian law. Thus, the specialized nature of
this case has unique implications for whether
Delaware is a convenient forum.
As to these highly specific issues, the parties
present competing accounts and, in support of both
this Motion and Plaintiffs’ Preliminary Injunction
motion, have submitted extensive documentation. I
am therefore “thrust into the merits of the underlying
dispute,” Van Cauwenberghe v. Biard, 486 U.S. 517,
528 (1988), and have necessarily availed myself of the
full scope of all of these submissions, from affidavits
submitted specifically for the FNC motion to all
appropriately the defendant’s interest in obtaining an
authoritative ruling from the relevant foreign courts on the legal
issue on which its liability hinges, as distinguished from a
predictive, non-authoritative ruling by our courts.”

77a
evidence pertaining to the motion for preliminary
injunction.6 Because it is necessary to “‘generally
become[ ] entangled in the merits’ to the extent
required to ‘scrutinize the substance of the dispute’”
on an FNC motion, Path to Riches, LLC ex rel. M.M.T.
Diagnostics (2014), Ltd. v. CardioLync, Inc., 2018 WL
993752, at *3 (D. Del. 2018) (quoting Van
Cauwenberghe, 486 U.S. at 528), I consider evidence
from that broader record.

Defendants objected to evidence submitted by Plaintiffs in
support of their opposition to Defendants’ FNC Motion on the
basis that such evidence was inadmissible under the Federal
Rules of Evidence. See Defs.’ Ev. Obj., ECF No. 55. But in
considering an FNC motion, I am not aware of any precedent
that limits my scope of review to evidence admissible under the
Federal Rules, nor have Defendants cited any. In fact, several
courts in the Third and other Circuits have reached the opposite
conclusion. See, e.g., Kisano Trade & Invest Ltd. v. Lemster, 2013
WL 594017, at *3 (W.D. Pa. 2013), aff’d, 737 F.3d 869 (3d Cir.
2013); Mujica v. Occidental Petroleum Corp., 381 F. Supp. 2d
1134, 1144 n.4 (C.D. Cal. 2005), aff’d sub nom. Mujica v. AirScan
Inc. , 771 F.3d 580 (9th Cir. 2014). Moreover, the Federal Rules
of Civil Procedure expressly preclude the application of the
Federal Rules of Evidence to one pivotal aspect of the FNC
analysis: the adequacy of the alternative forum. See Fed. R. Civ.
P. 44.1; see also Wilmot v. Marriott Hurghada Mgmt., Inc., 2016
WL 2599092, at *4 (D. Del. 2016), report and recommendation
adopted, 2016 WL 3457007 (D. Del. 2016) (citing Fed. R. Civ. P.
44.1 and stating, “In determining whether foreign law provides
adequate relief, as an element of determining whether the [FNC]
doctrine applies, a court may consider any relevant material or
source, including testimony, whether submitted by a party or
admissible under the Federal Rules of Evidence, and such
determination shall be treated as a ruling on a question of law”),
aff’d, 2017 WL 4570664 (3d Cir. 2017); Base Metal Trading SA v.
Russian Aluminum, 253 F. Supp. 2d 681, 699 (S.D.N.Y. 2003)
(taking the same approach and reaching the same conclusion),
aff’d, 98 F. App’x 47 (2d Cir. 2004).
6

78a
A. Adequacy of the Peruvian Court
System
In many respects, this is the critical issue. The
adequacy of an alternative forum is determined by a
defendant’s amenability to process in that forum and
a plaintiff’s opportunity for redress there. The
Supreme Court has observed that it is the “rare
circumstance[] . . . where the remedy offered by the
other forum is clearly unsatisfactory.” See Piper, 454
U.S. at 254 n.22. Defendants have met their burden to
demonstrate that an adequate alternative forum
exists in Peru because, for the purposes of this action
only, Defendants have stipulated to service of process,
consented to jurisdiction in Peru, and agreed to have
those be conditions of dismissal. In addition, Plaintiffs
conceded that Peruvian law recognizes a cause of
action and offers a remedy for the property damage
and personal injuries alleged here.
For their part, Plaintiffs argue that Defendants
have not met their burden because first, they have not
demonstrated that Peruvian courts have jurisdiction
over all Defendants, and second, Defendants’
improper influence over the Peruvian judiciary
renders the forum inadequate, relying primarily on
Eastman Kodak Company v. Kavlin, 978 F. Supp.
1078, 1085– 86 (S.D. Fla. 1997).7
Plaintiffs also argue that excessive delay in the Peruvian courts
warrants denying this Motion, citing Bhatnagar v. Surrendra
Overseas Limited, 52 F.3d 1220, 1227 (3d Cir. 1995). But the
Bhatnagar Court did not conclude that a delay of any length
rendered a forum inadequate. Rather, it recognized that delay “is
an unfortunate but ubiquitous aspect of the legal process,” and
“our own courts” suffer from it. Id. at 1227. Bhatnagar merely
stated that “at some point, . . . the prospect of judicial remedy
becomes so temporally remote that it is no remedy at all.” Id.
7

79a
1) The Potential for Jurisdiction over
Defendants in Peru
Plaintiffs base their first contention on the
declaration of Juan Carlos Ruiz Molleda, a Peruvian
attorney specializing in, inter alia, human rights and
access to justice and the law governing indigenous
peoples. Pls.’ FNC Resp. Ex. 17, ¶ 1, ECF No. 43-1.
Ruiz is also the author of numerous publications and
specialized legal articles in Peru and abroad. Id.
Based on Article 2058 of the Peruvian Civil Code, Ruiz
attests that “there is no guarantee” that a Peruvian
civil court would exercise its jurisdiction” over this
case, even if Defendants consent or stipulate to
jurisdiction. Id. ¶¶ 4–14.
Defendants counter with their own expert
declaration by Mario Castillo Freyre. Castillo is
another Peruvian lawyer in the areas of civil law and
arbitration who graduated from the same law school
as Ruiz. Castillo Decl. Ex. 1, at 1–4, ECF No. 54-1. In
addition to his private practice, Castillo is a professor
and well-published scholar. Id. at 4. Castillo’s analysis
principally relies on language in the same article of
the Peruvian Civil Code, the translation of which he
includes in his affidavit:
The Peruvian courts have competence to
hear complaints arising from the exercise of
patrimonial content actions even against

Applying that standard, it had no difficulty finding delay
intolerable when it approached 25 years. Here, although
Plaintiffs point to a number of factors that might contribute to
delay in any system, they fail to provide a benchmark for how
much delay can be expected in this case. Without that, I cannot
even begin to determine how to apply the Bhatanagar standard.

80a
persons domiciled in a foreign country, in
the following cases:
[. . .]
2. When actions related to obligations that
must be executed in the territory of the
Republic or that arise from executed
contracts or of facts carried out in said
territory are dealt. In the case of civil
actions arisen from crimes or faults
perpetrated or whose results have occurred
in the Republic, this competence is
considered exclusive.
Castillo Decl. 2 n.1, ECF No. 54. Castillo interprets
that language to indicate that jurisdiction can be had
if there is reasonable proximity—that is, if the alleged
tortious acts and the results of the alleged harm occur
in Peru. Id. ¶¶ 2–9. Castillo asserts that is the case
here, since Yanacocha’s actions in Peru form the basis
of this suit. Id. In addition, Castillo points out that
Molleda is wrong about the effect of consent or
stipulation, because another aspect of Article 2058,
referred to as “numeral 3[,]” allows jurisdiction to be
asserted over foreign parties if they “expressly or
tacitly submit to [the court’s] jurisdiction.” Id. ¶ 10.
Although Castillo’s text-based argument is
admittedly appealing, it does not account for how the
statute might actually be applied. But there is no need
to attempt to resolve this issue of Peruvian law,
because Plaintiffs’ concerns are unquestionably
within my power to address, by making dismissal of
this action not only contingent upon Defendants’
consent to jurisdiction in Peru, but further upon on a
Peruvian court actually accepting it.

81a
2) Alleged Corruption in the Peruvian
Judiciary
Plaintiffs’ second contention is that corruption
in the Peruvian judiciary renders Peru an inadequate
forum. That contention can be broken into two
theories, one alleging widespread corruption
rendering the entire Peruvian judicial system
inadequate, and another more narrow theory arguing
that Peru is inadequate only as to these parties based
upon specific evidence of judicial corruption
pertaining to them.
A theory of generalized corruption has “not
enjoyed a particularly impressive track record in our
courts.” Wilmot v. Marriott Hurghada Mgmt., Inc.,
2016 WL 2599092, at *5 (D. Del. 2016) (citing
Eastman Kodak, 978 F. Supp. at 1084), report and
recommendation adopted, 2016 WL 3457007 (D. Del.
2016), aff’d, 2017 WL 4570664 (3d Cir. 2017). Indeed,
“absent at least some particularized showing of
wrongdoing, courts are hesitant” to deem an entire
foreign court system so corrupt that it cannot be
considered an adequate forum. Id. Thus, I will
consider the general evidence Plaintiffs have
submitted,8 but only as background for the more
The U.S. State Department has not deemed the Peruvian
judiciary to be dysfunctional, but cautioned in its 2016 Human
Rights Report that there are allegations in the press and by nongovernmental organizations that judges have been corrupted and
influenced by outsiders. A 2016 report from GAN Integrity, a
consulting and software firm that advises businesses on
compliance issues, stated that Peru’s judicial system “carries a
very high risk of corruption,” based upon its review of various
private and public sources. Mr. Ruiz, one of Plaintiffs’ attorney
experts, describes systemic corruption, although it is noteworthy
that many of the instances cited were cases brought to light by
8

82a
particularized allegations that Plaintiffs present to
support the second theory.
The model case for evaluating such allegations
is Eastman Kodak. The allegation there was that
Casa Kavlin, the former exclusive distributor for
Kodak in Bolivia, brought criminal charges against
Carballo, who became Kodak’s new distributor, in
order to extort an advantageous financial
arrangement with Kodak. Eastman Kodak, 978 F.
Supp. at 1080–81. Specifically, Kodak presented
several instances of Kavlin’s attorney, Juan Carlos
Zegarra, using his judicial connections for this
purpose. Id. First, Zegarra used his connections to
have the case assigned to favorable judges: in one case,
Zegarra was the godfather of the judge’s son, who was
conceived out of wedlock by way of an affair with
Zegarra’s sister; and in another, Zegarra was once the
judge’s brother-in-law. Id. In each of those instances,
it was alleged that Zegarra was able to subject
Carballo, other Kodak employees, and even a Chilean
lawyer whose only act in Peru was to help Carballo be
released from prison lawfully, to significant abuses at
the hands of the Bolivian judicial system. Id. Most
notably, Zegarra secured Carballo’s pre-trial
imprisonment without bail in an infamous prison,
where it is rumored that one would have to pay for
even the right to live in a jail cell. Id. Kodak
supplemented these specific instances of corruption
with general evidence about the state of the Bolivian
judicial system, most notably statements by the
Bolivian Minister of Justice’s that the judicial system
he supervised was “a collection agency and the penal
the Peruvian government’s own investigation and prosecution of
the officials involved.

83a
system was an agent of [extortion].” Id. at 1085.
Combined, these allegations led the court to have
“serious doubts about Kodak’s ability to operate in
Bolivia free from the threat of prosecution, and even
immediate imprisonment.” Id. at 1087.
Here, Plaintiffs allege that Defendants
similarly influenced the Peruvian judiciary, including
in cases against Plaintiffs. Those allegations focus on
three discrete episodes, documented by affidavits and
news articles.
The first pertains to an incident that took place
in 2000, when Defendant Newmont Second Capital
Corporation was seeking control of Yanacocha during
the Fujimori regime. In one well-publicized account,
an audio recording surfaced of a then-Newmont
executive reaching out to the ranking Peruvian
National Intelligence Agency officer, Vladimoro
Montesinos, for Montesinos’s aid in ensuring that the
Peruvian Supreme Court would rule in favor of
Newmont. See Pls.’ FNC Resp. Ex. 1, ¶ 9, ECF No. 431. The New York Times reported that Montesinos
then tacitly pressured the judge who went on to break
the Supreme Court’s tie in favor of Newmont and
company. See Jane Perlez and Lowell Bergman,
Tangled Strands in Fight Over Peru Gold Mine, N.Y.
Times
(June
14,
2010),
http://www.nytimes.com/2005/10/25/world/americas/t
angled-strands-in-fight-over-peru-gold-mine.html.
Newmont’s attempts to influence the decision of
Peru’s Supreme Court appear to be well-documented,
but according to the Newmont executive accused, he
was reacting defensively to similar attempts by
Newmont’s French partners to influence the decision.

84a
Peru – The Curse of Inca Gold, Frontline/World (Oct.
2005), https://tinyurl.com/frontlineworld-thestory.
Regardless, the events in question occurred
some 18 years ago, around the time when the regime
of an infamously corrupt president, Alberto Fujimori,
imploded. The interim regime change and noted
improvements since render this a case where
Plaintiffs cannot plausibly allege that the national
government itself or high governmental officials are
directly involved in the alleged misconduct and can
dictate the outcome. Compare HSBC USA, Inc. v.
Prosegur Paraguay, S.A., 2004 WL 2210283 (S.D.N.Y.
2004); Daventree Ltd. v. Republic of Azerbaijan, 349 F.
Supp. 2d 736 (S.D.N.Y. 2004); Araya v. Nevsun Res.
Ltd., 2017 BCCA 401 (CanLII). Further, both before
and after Fujimori’s regime, every federal court to
consider the issue has found Peru to be an adequate
forum. See, e.g., Torres v. S. Peru Copper Corp., 965 F.
Supp. 899, 904 (S.D. Tex. 1996), aff’d 113 F.2d 540
(5th Cir. 1997); Sudduth v. Occidental Peruana, Inc.,
70 F. Supp. 2d 691, 697 (E.D. Tex. 1999); Flores v. S.
Peru Copper Corp., 253 F. Supp. 2d 510 (S.D.N.Y.
2002), aff’d on other grounds, 414 F.3d 233, 266 (2nd
Cir. 2003); Maxima International, S.A. v. Interocean
Lines, Inc., 2017 WL 346826, *2 (S.D. Fla. 2017). Thus,
an act of corruption involving a high official during
that regime is not enough to now find the Peruvian
court system inadequate.9
Fujimori was later sentenced to 25 years in prison for graft and
human rights violations. It should be noted, however, that
Fujimori’s children remain moving forces in Peruvian politics,
and he was recently the beneficiary of a controversial pardon.
Mitra Taj, Fujimora Family Pulls Peru back into Political
Turmoil,
Reuters
(Dec.
25,
2017),
https://www.reuters.com/article/us-peru-fujimori9

85a
Second, Plaintiffs’ attorney in Peru, Mirtha
Esther Vásquez Chuquilín, asserts that the Peruvian
legal system has been unresponsive to Plaintiffs’
claims, but solicitous of Yanacocha’s complaints. Ms.
Vásquez submits that the prosecutor’s office has not
investigated their numerous complaints, and that one
judge, who agreed to conduct an on-site inspection of
Tragadero Grande, later cancelled the visit without
notifying Plaintiffs. Pls.’ FNC Resp. Ex. 19, ¶ 11–14,
ECF No. 43-1. The defense counters that what
Plaintiffs describe as unresponsiveness represents
nothing more than local officials exercising
prosecutorial and judicial discretion in deciding how
to expend resources. Ms. Vasquez further alleges that,
in August 2011, the prosecutor’s office brought an
aggravated usurpation claim against three of the
Chaupes without any evidence. Id. ¶ 28. She then
points to several irregularities she noticed during the
proceeding, such as the prosecution insulting her and
not focusing on strictly legal arguments, the court not
accepting evidence she wanted to present, and, in the
end, the prosecutors receiving a copy of the judgment
before she did. Id. ¶¶ 28–32. This is concerning, but
such concern is mitigated by the fact that the
judgment was overturned by the court of appeals on
two occasions, and the Peruvian Supreme Court
subsequently upheld that ruling. Id. ¶ 3. In short,
Plaintiffs were ultimately protected by the very
judicial system they ask me to deem inadequate.
The third is an account from Plaintiff Ysidora
Chaupe-Acuña, pertaining to a trial in 2013. There,
she alleges that,
family/fujimori-family-pulls-peru-back-into-political-turmoilidUSKBN1EJ0VX.

86a
right before [the Judge] issued the sentence,
the lawyer for [Yanacocha] arrived and gave
the judge a document. Afterwards, the
[Judge] gave us the same document and it
was the guilty sentence. Shortly after being
given [that] document, . . . [the Judge]
apologized for the outcome of the trial, . . .
[and told me] that the company gave an
‘economic benefit’ to the prosecutor to bring
the case against us.
Pls.’ P.I. Mot. Ex. 6, ¶ 7–8, ECF No. 27-1.
Even taking these facts at face value, it is
noteworthy that it was the court that brought this
instance of apparent corruption to Plaintiffs’ attention.
Thus, although the situation is troubling, it does not
support a global finding that Peru is an inadequate
forum for Plaintiffs, particularly in light of the success
Plaintiffs experienced in the appellate courts.10
More broadly, there is reason to question
whether Yanacocha’s influence over the Peruvian
government is as strong as Plaintiffs assert. Action by
the Peruvian government has led to Yanacocha
suspending its Conga operation. The core premise of
Plaintiffs’ argument is that Defendants will go to any
means to expand their mining operation, but in fact
they have been stymied by the government’s
responsiveness to local opposition to such expansion.
As supplemental evidence, Plaintiffs submitted an article
concerning corruption within the Peruvian government. That
article reports an investigation into allegations that certain
officials accepted bribes from Brazilian companies in exchange
for public construction jobs. See Notice of Supp. Ev. Ex. 1, ECF
No. 91. The implications for the Peruvian judiciary are not
apparent.
10

87a
Further, Plaintiffs’ Complaint acknowledges other
ways in which the Peruvian government has been
responsive to their situation. Plaintiffs state that the
government “will travel to Tragadero Grande twice a
month . . . to verify [their safety],” and that it “will also
pay for [their] phone bills.” Compl. ¶ 350, ECF No. 1.
The Complaint also alleges that the Peruvian
Minister of Justice and Human Rights publically
affirmed that the “government was coordinating with
the police on a protection plan” for the Plaintiffs. Id. ¶
351. Finally, since at least 2015, the Peruvian
National Police have not been involved with
Yanacocha’s exercises of its possessory defense
against the Chaupes. See Defs.’ P.I. Resp. 6, n. 4, ECF
No. 37.
In addition to the fact that Defendants’
influence was not enough to force through expansion
of the mine over local opposition, it is far from clear on
the record before me that Defendants are ruthlessly
determined to exploit weaknesses in the Peruvian
judiciary to trample Plaintiffs’ rights. At the corporate
level, Defendants have endorsed and adopted
established human rights frameworks such as the
United Nations Guiding Principles on Business and
Human Rights and the Voluntary Principles on
Security and Human Rights, in addition to a series of
internal policies and standards. And beyond good
intentions, Defendant Newmont has made some
efforts to investigate alleged abuses by their
subsidiary. Newmont funded an independent factfinding mission in 2015 by Resolve, a non-profit,
Washington-based dispute resolution organization
with a 40-year history. Resolve reviewed earlier public
inquiries dating back to 2009, which found in part
that the growth and persistence of conflicts in

88a
Tragadero Grande was attributable to Yanacocha’s
inadequate grievance systems and over-reliance on
state institutions and legal processes to resolve
disputes. Further, the mission examined “the
allegations of human rights violations perpetrated
against the Chaupe family, and [Yanacocha’s]
conformance to Newmont’s own policies and
international standards.” Pls.’ P.I. Mot. Ex. 16, at v.,
ECF No. 27-2. Consistent with the findings in earlier
studies, the Chaupes and Yanacocha both agreed that
attempts to evict the Chaupes occurred without an
opportunity for dialogue, and that there was no such
opportunity until 2015. This led the mission team to
conclude that the Chaupe family’s human rights were
at risk from the first encounter, and that a
precautionary approach should have been taken prior
to eviction. Id. at 36. After reviewing reports by key
actors, including Yanacocha’s security personnel,
Yanacocha, and the Chaupe family, in addition to
video footage and photographic records, the mission
team “did not discover conclusive evidence that
[Yanacocha] violated human rights of members of the
Chaupe family. Specifically, [it found] no conclusive
evidence relating to the use of force by police on
August 11, 2011.” Id. at 32.11 Such private fact-finding
is by no means controlling, and a court would be naïve
not to consider the fact that such investigations can
be self-serving. But given Resolve’s apparent
Video submitted by the parties or otherwise accessible within
the public domain does not show instances of violence against
Plaintiffs. One video, however, appears to show local residents
armed with machetes and clubs advancing toward a police line,
and another shows what appears to be one of the Plaintiffs
throwing a rock that strikes a Yanacocha representative on the
head.
11

89a
independence,12 I find the effort itself somewhat
relevant in determining whether the principal
defendant here, Newmont, seeks to gain an unlawful
advantage in Peruvian courts.
An additional factor bearing on whether
Peruvian courts will function impartially is the
admirable success Plaintiffs have had in focusing
international public attention on this dispute,
including now the attention of the federal judiciary in
the United States. Among other things, the InterAmerican Commission on Human Rights (IACHR) of
the Organization of American States formally
requested that the Peruvian government to adopt
precautionary measures for numerous leaders of
campesino communities, among them the Chaupe
family. PM 452 11 – Leaders of Campensino
Communities and Campesino Patrols in Cajarmaca,
Peru, Organization of American States: InterAmerican Commission on Human Rights (May 5,
2014),
https://www.oas.org/en/iachr/decisions/precautionary.
asp. Journalists and international human rights
groups such as Amnesty International have visited
the site of the dispute as observers, carrying letters of
support. Peru: Peruvian Authorities Put an End to the
Criminalization of Defender Máxima Acuña, Amnesty
International
(May
3,
2017),
https://www.amnesty.org/en/latest/news/2017/05/per
It should be noted that a former executive of Newmont sits on
the board of Resolve. But as a result of that, he took a leave of
absence for the entire period of the Yanacocha fact finding
mission. Yanacocha Independent Fact Finding Mission,
Resolve.org, http://www.resolv.org/site-yiffm/faqs/ (last visited
Apr. 10, 2016).
12

90a
u-autoridades-peruanas-ponen-punto-final-a-lacriminalizacion-de-la-defensora-maxima- acuna/. In
2016, Plaintiff Máxima Acuña received the Goldman
Environmental Prize from a United States foundation
for her defense of her claim to the land. Major media
outlets have praised her resilience. Anna Lekas Miller,
Meet the Badass Grandma Standing Up To Big
Mining, The Daily Beast Company LLC (Apr. 16,
2016),
https://www.thedailybeast.com/meet-thebadass-grandma-standing-up-to-big-mining.
This
continued spotlight makes it less likely that judicial
proceeding in Peru will be subject to untoward
influences.
In summary, as to the first element of the test,
although Plaintiffs have shown cause for concern over
Peruvian courts, I cannot say that they are “clearly
unsatisfactory” under Piper.
B. Level of Deference to Plaintiffs’
Choice of Forum
I must now decide how much deference
Plaintiffs’ choice of forum is due. The importance of
this factor was also highlighted in Eastman Kodak,
where, despite the fact that Kodak’s allegations of
corruption raised “serious doubts” as to the adequacy
of Bolivia as a forum, “[the] case [came] down to the
[full] deference being given to [Kodak’s] choice of
forum” as a domestic plaintiff. See 978 F. Supp. at
1087. Indeed, ordinarily there is a “strong
presumption in favor of the plaintiff’s choice of forum”
and plaintiff’s choice “should rarely be disturbed.”
Piper, 454 U.S. at 241. That presumption, however,
“applies with less force when the plaintiff or real
parties in interest are foreign.” Id. at 255. Courts give
foreign plaintiffs less deference not because of

91a
“xenophobia, but merely [out of] a reluctance to
assume that the choice is a convenient one.” Lacey v.
Cessna Aircraft Co., 932 F.2d 170, 179 (3d Cir. 1991)
(Lacey II )(citing Lony v. E.I. Du Pont de Nemours &
Co., 886 F.2d 628, 634 (3d Cir. 1989)). This reluctance
“can readily be overcome by a strong showing of
convenience” by the plaintiff. Id.
Despite being foreign citizens, Plaintiffs argue
that their forum choice is due full deference because 1)
a United States-Peru treaty provides for national
access to U.S. courts for Peruvians, and 2) the
convenience of the United States is established by the
problems with Peru discussed above.
I am not persuaded. As to the first point, there
is binding precedent to the contrary. In Kisano Trade
& Invest Limited v. Lemster, the Third Circuit
specifically rejected an argument that a treaty with
Israel providing Israeli citizens access to United
States courts required greater deference to an Israeli
citizen’s choice of forum. 737 F.3d at 875 (3d Cir. 2013)
(citing 14D Charles Alan Wright et al., Federal
Practice and Procedure § 3828.2 (3d ed. 2007) (“[I]n
practice, federal courts generally hold that [treaties
promising equal access to courts] do not entitle foreign
plaintiffs to the same deference as United States
citizens.”)). The treaty here is similar, and does not
entitle Plaintiffs to full deference on their choice of
forum.
As to Plaintiffs’ remaining points, I address two
of their three concerns by predicating dismissal on
certain conditions. As to jurisdiction in Peru,
dismissal here will be predicted upon a Peruvian court
accepting it. As to enforceability, I will make dismissal
here contingent upon Defendants’ stipulation that the

92a
judicial system in Peru qualifies as legally adequate
for purposes of applying Delaware’s standards for the
recognition of foreign-country judgments. See 10 Del.
Code. § 4803(b). As to the likelihood of a fair trial in
Peru, although concerns exist, as set forth above,
under the totality of the circumstances, I am not
persuaded that Plaintiffs’ fears of unfair treatment
entitle them to additional deference as foreign
Plaintiffs. I therefore afford them less than full
deference.
C. Balance of Private and Public
Interests
Having concluded that Peru is an adequate
alternative forum and assessed the level of deference
to Plaintiffs’ choice of forum, I move to the final step
of the analysis, which requires that I examine the
relevant private and public interests. Defendants’
burden here is to show that the balance of these
factors “tips decidedly in favor of trial in the foreign
forum,” outweighing the deference owed to Plaintiffs’
chosen forum. See Lacey II, 932 F.2d at 180.
1) Private Interest Factors
Heavily in Favor of Peru

Weigh

The relevant private interest factors are set
forth in Gilbert:
[1] the relative ease of access to sources of
proof; [2] availability of compulsory process
for attendance of unwilling witnesses; [3]
the cost obtaining attendance of willing
witnesses; [4] the possibility of a view of the
premises, if appropriate to the action; and [5]
all other practical problems that make trial
of a case easy, expeditious and inexpensive.

93a
Gilbert, 330 U.S. at 508.
I conclude that these factors tilt decidedly in
favor of Peru. As to the first factor, Peru is where
much of the alleged conduct and all of the injuries took
place, where most of the relevant witnesses—the
Chaupes, Yanacocha, PNP, and Securitas—are all
located, and where most of the documentary and
physical evidence is located. As to the second factor,
compulsory process is not available for some of these
witnesses, including Securitas and the PNP. As to the
third, given how many witnesses are located in Peru
and how few are in the United States, the costs of
obtaining attendance would be significant in
Delaware when compared to trial in Peru. Regarding
the fourth factor, though not absolutely necessary
given modern technology, viewing the premises might
be appropriate in this action, given the many
allegations about what was done to and around the
land. As to the final, catch-all factor, Defendants
identify three salient points: (i) they will not be able
to implead other potentially responsible parties, such
as Securitas or PNP, since those parties do not have
sufficient contacts with Delaware, (ii) translators for
all the witnesses and documents will be costly, and (iii)
there will be challenges to enforcing a United States
judgment in Peru, similar to the issues regarding the
enforceability of a Peruvian judgment in the United
States.
Plaintiffs contend otherwise, advancing eight
separate arguments, six of which concern the practical
advantages of trying this case in Delaware, and the
final two concerning legal challenges that may arise if
trial is in Peru. Overall, these arguments are
predicated on the notion that this case is likely to

94a
center on the conduct of Newmont executives in the
United States. By framing the issue in that manner,
Plaintiffs invite me to make a determination now as
to the ultimate focus of this case. But that invitation
reflects a misapprehension of the extent of my inquiry
at this stage of the litigation, where “no discovery has
taken place,” and no answer has been filed. See Lacey
II, 932 F.2d at 181. Indeed, I can, at most, “delineate
the likely contours of the case,” but “cannot . . .
determine what the ultimate focus of the trial will be.”
Id. And even if I could, the extensive evidence
provided on this Motion and, more importantly, on
Plaintiffs’ own Motion for Preliminary Injunction, has
focused almost exclusively on the events that took
place in Peru, undercutting their argument that trial
or discovery will feature Defendants’ corporate
conduct in this country more prominently.
As to the arguments themselves, Plaintiffs
contend that there are key corporate witnesses in the
U.S., and that Defendants overstate the costs of
obtaining witnesses and translators, and the need to
see Tragadero Grande. But because an overwhelming
majority of the evidence and relevant witnesses
appear to be in Peru, along with potential parties, I
remain convinced that the private interests weigh
heavily in favor of trying this case in Peru. Again, that
conviction is bolstered by the fact that, thus far, much
of the parties’ factual disputes have centered on
events in Peru.
The result is the same for Plaintiffs’ legal
concern about the enforceability of a Peruvian
judgment in Delaware. Here, in an effort to make
Delaware the center of the case, Plaintiffs simply
ignore the reality of the injunctive relief they seek,

95a
which is specific protection from the actions of entities
in Peru. As discussed above, given this aspect of the
case, local administration is preferable, and
enforceability of any judgement here is a concern I can
effectively address.
The Plaintiffs’ other legal challenges warrant a
different response. First, they raise the possibility
that Peruvian evidentiary rules could limit the use of
foreign evidence. Second, they identify potential
obstacles to proving their case, because the testimony
of family members is uniformly deemed unreliable
under Peruvian law. The former concern can be
addressed by including in my dismissal order the
condition that, if Plaintiffs seek the testimony of
Defendants’ representatives, Defendants may not
object even if grounds for objection exist under
Peruvian law. The latter concern, however, deals with
the specific rules concerning testimony by Peruvian
citizens. I am not prepared as a judge sitting in
another nation to conclude that a single such rule
renders an entire court system inadequate, or to
attach a condition presumptuously imposing
American evidentiary rules on a foreign court.
2) Public Interest Factors
Heavily in Favor of Peru

Weigh

As to the public interest factors, I am likewise
persuaded that those weigh heavily in favor of trial in
Peru. Gilbert identified the relevant factors here as:
“Administrative difficulties follow for courts
when litigation is piled up in congested
centers instead of being handled at its origin.
Jury duty is a burden that ought not to be
imposed upon the people of a community
which has no relation to the litigation. In

96a
cases which touch the affairs of many
persons, there is reason for holding the trial
in their view and reach There is a local
interest in having localized controversies
decided at home.”
330 U.S. at 508–09. Here, Defendants point to the
alleged torts occurring in Peru, the Peruvian
government’s efforts to address this dispute thus far,
and the case before the Peruvian judiciary concerning
the underlying land dispute, to argue that Peru has
an overwhelming interest in this matter, and
Delaware virtually none in comparison. Further,
Defendants argue that jurors here should not be
burdened, especially since Peruvian law will likely
govern or at least play a significant role. Finally, they
contend that the congestion existing in Peruvian
courts should not weigh heavily here, both in light of
controlling precedent and because as a result of
vacant judgeships this court is not without its own
challenges. I agree. This case would pose
administrative difficulties,13 not the least of which is
the likelihood that Peruvian law would govern many,
if not all, of Plaintiffs’ claims. And although I would
not characterize Delaware’s interest as “virtually
none,” it necessarily carries less weight than the
interest of Peru.14
Plaintiffs’ argument that the difficulties posed by the vacancies
on this court “pale[] in comparison” to those affecting Peruvian
courts may be well-founded, but short of implying a burden of the
kind acknowledged in Bhatnagar, those difficulties do not carry
dispositive weight.
13

The legislative findings that accompanied the Foreign Corrupt
Practices Act, 15 U.S.C. § 78dd-1, make clear that maintaining
international confidence in the integrity of American business is
in the national interest of the United States. The specter of
14

97a
To determine this dispute’s connection to
Plaintiffs’ preferred forum, I “consider the locus of the
alleged culpable conduct, often a disputed issue, and
the connection of that conduct” to Delaware. See Lacey
I, 862 F.2d at 48 (citation omitted) (emphasis added).
I emphasize “often a disputed issue” because that is
precisely the case here: in Plaintiffs’ view, the locus of
the alleged culpable conduct is Delaware, where
Defendants are incorporated, oversee the conduct of
Yanacocha, knew of the alleged tortious conduct, and
failed to put an end to it. Meanwhile, Defendants
argue that the alleged culpable conduct took place in
Peru, for the conduct at issue here is the alleged
tortious conduct of Yanacocha’s security personnel in
Peru, more so than anything Defendants did or failed
to do at the corporate level. As previously stated,
Plaintiffs’ own submissions underscore the degree to
which Peru is at the center of this case. Further, Peru
has demonstrated significant interest in this matter.
See Compl. ¶¶ 60, 350–51. In contrast, Delaware’s
connection to this case is remote, especially since,
even accepting that the alleged corporate conduct
plays an equally prominent role, that conduct likely
took place in Colorado, where Defendant is
headquartered, as opposed to Delaware. See Hudgens
disproportionate corporate influence raised by Plaintiffs here
was also addressed by regulations promulgated by the Securities
Exchange Commission under Section 1504 of the Dodd-Frank
Wall Street Reform and Protection Act, 15 U.S.C. § 78m(q),
requiring that companies that extract minerals disclose publicly
any payments made to governments. But those reporting
requirements were eliminated in the first legislation signed
during the Trump Administration. Disclosure of Payments by
Resource Extraction Issuers, Pub. L. No. 115-4, 131 Stat. 9 (Feb.
14, 2017). Suffice it to say that the absence of such a reporting
requirement is felt in cases such as this.

98a
Decl. ¶¶ 2– 5 (“None of [Newmont’s] operations,
employees, or records are located in Delaware.”). Thus,
separated from both Peru and Colorado by at least a
thousand miles, Delaware can hardly be considered
the locus of the alleged culpable conduct. See Eurofins,
623 F.3d at 163 (“[T]hough Delaware has a significant
interest in actively overseeing the conduct of those
owing fiduciary duties to the shareholders of
Delaware corporations, that interest is . . . insufficient
to outweigh the locus of the alleged culpable conduct
in this case.”)
As to the difficulties posed by governing law in
this case, Piper instructs that FNC “is designed in
part to help courts avoid . . . complex exercises in
comparative law.” See 454 U.S. at 251. Thus, “where
the court would be required to untangle problems in
conflict of laws, and in law foreign to itself,” the public
interest factors point towards dismissal. Id. Here,
both parties agree that, as a federal judge sitting in
diversity in Delaware, I am to apply Delaware’s choice
of law rules to any dispute regarding applicable
substantive law. See Klaxon Co. v. Stentor Elec. Mfg.
Co., 313 U.S. 487, 496 (1941). Delaware has adopted
the Restatement (Second) of Conflicts, pursuant to
which Defendants present a compelling case that
Peruvian law would govern many of the claims here.
See Defs.’ FNC Mot. 20 (citing Restatement (Second)
of Conflicts § 145(2) cmt. e (“When the injury occurred
in a single, clearly ascertainable state and when the
conduct which caused the injury also occurred there,
that state will usually be the state of the applicable
law with respect to most issues involving the tort.”)).
Their analysis is even more compelling in light of the
Delaware Supreme Court’s ruling in Bell Helicopter
Textron, Incorporated v. Arteaga, 113 A.3d 1045, 1053

99a
(Del. 2015), which held that in tort actions, the local
law of the state of injury is presumed to apply if the
plaintiff has “significant contact with the site other
than the accident itself.” There, the fact that a foreign
Plaintiff resided in the forum where the injury
occurred was held to meet the “significant contact”
requirement, and the law of that forum, Mexico, was
applied. Id. (citing § 145 cmt. f, which states that
“when [the] conduct and injury occur in different
states . . . the local law of the state where the injury
occurred is most likely to be applied when the
decedent had a settled relationship to that state,
either because he was domiciled or resided there or
because he did business there”).
Plaintiffs attempt to forestall such a conclusion
by arguing that Defendants failed to identify a conflict
between Peruvian and Delaware laws. But the
possessory defense discussed above is one such
conflict, and central to this case. Moreover, from a
review of the submissions of the parties’ legal experts,
it is readily apparent that there will be multiple
contested issues of Peruvian law.
On balance, Defendants have met their burden
of showing that the private and public interest factors
weigh heavily in favor of this case being tried in Peru,
and outweigh the reduced deference owed to Plaintiffs’
forum choice.
IV. Conclusion
Defendants’ FNC motion will therefore be
granted, subject to the conditions set forth throughout
this Memorandum and included in the accompanying
order. Such dismissal will be without prejudice,
allowing Plaintiffs to re-invoke the jurisdiction of this
Court if the conditions of dismissal are not met.

100a

/s/ Gerald Austin McHugh
United States District Judge

101a
APPENDIX I
________________________________
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1765

MAXIMA ACUNA-ATALAYA; DANIEL CHAUPEACUNA; JILDA CHAUPE- ACUNA; CARLOS
CHAUPE-ACUNA; YSIDORA CHAUPE-ACUNA,
personally and on behalf of her minor child M.S.C.C.;
MARIBEL HIL-BRIONES; ELIAS CHAVEZRODRIGUEZ, personally and on behalf of his minor
child M.S.C.C.,
Appellants
v.
NEWMONT MINING CORP; NEWMONT SECOND
CAPITAL CORP; NEWMONT USA LTD;
NEWMONT PERU LIMITED

(D.C. No. 1-17-cv-01315)

SUR PETITION FOR REHEARING

102a
Present: SMITH, Chief Judge, McKEE, CHAGARES,
JORDAN, SHWARTZ, RESTREPO, BIBAS, MATEY,
and *FISHER, Circuit Judges
The petition for rehearing filed by Appellants
in the above-entitled case having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges of
the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,

s/Patty Shwartz
Circuit Judge
Dated: February 9, 2021
PDB/cc: All Counsel of Record

*

Hon. D. Michael Fisher vote is limited to panel rehearing only.

